<html>
<title> - RESPONDING TO THE HUMANITARIAN, SECURITY AND GOVERNANCE CRISIS IN THE CENTRAL AFRICAN REPUBLIC</title>
<body><pre>[Senate Hearing 113-181]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-181
 
 RESPONDING TO THE HUMANITARIAN, SECURITY AND GOVERNANCE CRISIS IN THE 
                        CENTRAL AFRICAN REPUBLIC 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 17, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

86-778 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                        COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
BENJAMIN L. CARDIN, Maryland         JOHN McCAIN, Arizona
JEANNE SHAHEEN, New Hampshire        JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Arieff, Alexis, Analyst in African Affairs, Congressional 
  Research Service, The Library of Congress, Washington, DC......    17
    Prepared statement...........................................    19
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Flake, Hon. Jeff, U.S. Senator from Arizona, opening statement...     3
Gast, Earl, Assistant Administrator for Africa, United States 
  Agency for International Development, Washington, DC...........     7
    Prepared statement...........................................     8
List, Lisabeth, medical coordinator, Medecins Sans Frontiers/
  Doctors Without Borders, New York, NY..........................    27
    Prepared statement...........................................    29
Schneider, Mark, senior vice president, International Crisis 
  Group, Washington, DC..........................................    35
    Prepared statement...........................................    37
Thomas-Greenfield, Linda, Assistant Secretary of State for 
  African Affairs, U.S. Department of State, Washington, DC......     3
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

USAID map showing Armed Conflict and Active USG Humanitarian 
  Programs in the CAR submitted by Earl East.....................    52
Prepared statement of Simon O'Connell, West and Central Africa 
  Regional Director, Mercy Corps.................................    54
Letter sent to Senator Christopher A. Coons by Most Reverend 
  Richard E. Pates, Bishop of Des Moines, Chairman of the 
  Committee on International Justice and Peace, U.S. Conference 
  of Catholic Bishops............................................    56
Written statement from Religious Leaders' Platform...............    58

                                 (iii)

  


 RESPONDING TO THE HUMANITARIAN, SECURITY AND GOVERNANCE CRISIS IN THE 
                        CENTRAL AFRICAN REPUBLIC

                              ----------                              


                       TUESDAY, DECEMBER 17, 2013

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, Cardin, and Flake.
    Also Present: Senator Durbin.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Good afternoon. I would like to call this 
hearing of the African Affairs Subcommittee to order. Today the 
African Affairs Subcommittee will focus its attention on the 
Central African Republic, or CAR. CAR is a resource-rich, but 
desperately poor, country that, sadly, seldom catches the 
attention of international policymakers, but today is in the 
midst of an appalling and man-made crisis. The violent crisis 
in CAR is a stark reminder of the very real human costs of 
fragile states, weak governance, and corruption.
    To this sobering discussion, I would like to welcome my 
partner on the subcommittee, Senator Jeff Flake of Arizona. 
Senator Flake brings a deep commitment to Africa and I look 
forward to working with him to promote lasting solutions to 
this complex crisis.
    I would also like to welcome other members of the committee 
who may be joining us, as well as our distinguished witnesses: 
Linda Thomas-Greenfield, Assistant Secretary of State for 
Africa; Earl Gast, Assistant Administrator for Africa at USAID; 
Alexis Arieff, Africa analyst at CRS; Lisabeth List, medical 
coordinator, Medecins Sans Frontieres; and Mark Schneider, 
senior vice president of the International Crisis Group. Thank 
you all. I look forward to hearing your insights and thank you 
for being here.
    The voices of Central Africans must also inform our policy 
decisions and I am grateful to have recently spoken with 
Central African officials for a firsthand account that helped 
to inform my perspective. While I regret that no CAR leaders or 
officials could join us today, I would like to enter into the 
record a joint statement from Archbishop Dieudonne Nzapalaing, 
Imam Omar Kobine Layama, and Reverend Nicholas Nguerekoyame--
excuse me--Ngbakou, from Bangui, who are pictured here.
    I would also like to enter into the record statements from 
Catholic Relief Services and Mercy Corps to reflect 
recommendations based on their recent experiences working in 
CAR.
    CAR has a long history of instability and conflict and has 
been the focus of United Nations and regional efforts to 
support peace and security, sadly with little lasting effect. 
As difficult as CAR's history has been, the current crisis is 
far different in terms of its scope and emerging brutality. 
Following a March 2013 coup by the loose coalition of rebels 
collectively known as Seleka, little more than a facade of a 
transitional government now exists in CAR and the already weak 
national security forces have nearly disintegrated.
    The people of CAR have been left powerless against a 
multitude of violent groups. Opportunists, many from Chad and 
Sudan and seemingly motivated by greed, have swelled the ranks 
of Seleka factions from 4,000 to nearly 20,000, engaging in 
horrific violence across the country.
    In response to Seleka attacks, local defense groups, known 
as anti-balaka, have retaliated, spurring a vicious cycle of 
murder, maiming, rape, and destruction of property and 
livelihoods. More than half a million people, or a tenth of 
CAR's population, have been displaced and at least half are in 
need of humanitarian assistance, but many are beyond the reach 
of help due to insecurity.
    We lack reliable and comprehensive data on the deaths and 
injuries, but civil society groups on the ground have provided 
chilling evidence of entire families slashed to death by 
perpetrators wielding machetes, babies suffering gunshot 
wounds, and of villages burned to the ground.
    Compounding the crisis in CAR is the growing interreligious 
nature of the violence. Seleka rebels are primarily Muslim and 
have reportedly targeted Christians, and the anti-balaka are 
primarily Christian and are reportedly targeting Muslims. 
Civilians are seeking refuge around churches and mosques and, 
while ethnic divisions are not new in CAR, open interreligious 
violence, significant participation of foreigners in these 
attacks, and the large-scale targeting of civilians are 
unprecedented. They increase the risk of regional spillover and 
may create deeper and longer lasting societal divisions.
    Today's hearing will look at how the United States and 
international partners can deepen their engagement to stop the 
violence, prevent regional spillover, and begin the process of 
achieving sustainable governance. There are clearly no easy 
solutions, but we cannot stand aside as innocent civilians are 
targeted.
    The recent U.N. Security Council decision to impose an arms 
embargo on CAR, create a commission to investigate human rights 
violations, and authorize French military support to the 
African-led International Support Mission in CAR was a welcome 
and necessary step. France has very helpfully moved quickly to 
bolster its troop presence, and I am interested to hear from 
witnesses about what more the United States can do to support 
multilateral efforts to ensure AU troops have the capacity 
necessary to improve security and end the violence.
    I look forward to working with the administration and with 
civil society to ensure we do everything we can to stop the 
suffering in CAR, hold perpetrators accountable for their 
atrocities, help CAR's people build a stable and democratic 
future as well. I strongly support ongoing efforts by the 
administration to increase assistance to MISCA troop-
contributing countries and look forward to hearing from our 
witnesses about next steps for the U.S. role, including 
the possibility of U.S. support for a proposed U.N. 
peacekeeping operation.
    I would also, in closing of my opening, like to thank Susan 
Triana, who has served very ably in my office as a Brookings 
State Department fellow and who provided much of the labor for 
this CAR hearing and who we will greatly miss in my office as 
she returns to the State Department.
    I would like to welcome Senator Flake for his opening 
statement. Thank you.

               OPENING STATEMENT OF JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, chairman. I appreciate the 
testimony that we are going to receive, and I know that you are 
busy. There is a lot going on, not just at CAR but in the 
region as well. So I appreciate having Assistant Secretary 
Thomas-Greenfield and Assistant Administrator Gast here, and 
look forward to the testimony.
    I just want to echo what the chairman said about the 
importance of our involvement here to prevent spillover into 
the region and effects that we will deal with for a long time 
to come. So I applaud the United Nations for moving 
expeditiously and for our representation there for prodding the 
action that is been taken, and I look forward to the testimony 
and for all the witnesses in the second panel as well.
    So thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    I would like to ask now, if I might, Assistant Secretary 
Thomas-Greenfield. We know you have a pressing schedule, so we 
very much look forward to your testimony and the opportunity to 
question briefly.

STATEMENT OF HON. LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY 
    OF STATE FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Thomas-Greenfield. Thank you very much, and thank you, 
Chairman Coons, Ranking Member Flake, and other members, for 
the opportunity to testify before you today on this urgent 
matter. I very much appreciate your interest and your raising 
the profile of this issue. I have submitted a full written 
testimony to the committee and I would ask that it be entered 
into the record and I will summarize briefly that testimony 
here today.
    We are deeply concerned by the horrific violence across 
Central African Republic, particularly the increasingly 
sectarian nature of the attacks on civilians, as you described. 
We are working closely with the members of the international 
community to end the violence and restore security to CAR. We 
have publicly condemned Seleka's seizure of power and its 
campaign of rape, pillage, and killings. We have also warned 
that individuals responsible for fueling and engaging in 
violence and human rights violations will be held accountable. 
Ambassador Power delivered this message directly to 
Transitional President Djotodia in a telephone civilian on 
December 7.
    On December 5, the United States cosponsored U.N. Security 
Council Resolution 2127, which establishes an arms embargo, a 
sanctions committee, and a panel of experts, a commission of 
inquiry, and an increase in the human rights monitoring 
capacity of the U.N. Political Office in CAR. In September we 
cosponsored the U.N. Human Rights Council resolution creating 
an independent expert position for CAR.
    To immediately stem the violence, we strongly supported the 
U.N. Security Council's authorization of a 1-year chapter 7 
mandate for the African Union-led International Stabilization 
Force in the Central African Republic, MISCA, and for an 
expanded French troop presence in support of MISCA. We believe 
MISCA, working closely with French forces, provides the most 
immediate mechanism for ending the violence. In addition, we 
believe MISCA's robust stabilization mandate is what is needed 
now to confront and disarm the armed groups.
    To give these forces their best chance of success on the 
ground, we are providing them equipment, strategic airlift, and 
predeployment training. On November 20, Secretary Kerry 
announced that the State Department, pending congressional 
notification, would provide $40 million in assistance to MISCA 
troops, troop contributors, from existing resources. On 
December 10, the President delegated authority to Secretary 
Kerry to direct the drawdown of up to $60 million in defense 
articles and services for existing Department of Defense 
resources in order to provide immediate military assistance for 
France, the AU, and countries contributing forces to MISCA. We 
have already begun utilizing some of this funding to airlift 
850 Burundians, Burundi troops, into CAR in an operation that 
is scheduled to be completed this week.
    Because of the dangerous sectarian tension in CAR, we have 
actively reached out to local radio stations and other media to 
encourage them to transmit messages from Christians as well as 
from Muslim religious leaders urging peace and reconciliation. 
President Obama recorded a statement to the people of CAR on 
December 9. The message has been translated in French and Sango 
and broadcast repeatedly on multiple stations throughout CAR, 
and we have heard from people in CAR that they have appreciated 
hearing those messages from the President.
    We are working hard to respond to the most urgent 
humanitarian needs. In fiscal year 2013 the United States 
provided more than $24 million in humanitarian assistance, with 
$6.2 million in additional assistance announced in September to 
assist new CAR refugees in neighboring countries.
    We continue to insist that the CAR transitional government 
abide by the N'Djamena Declaration and the interim 
constitution, which calls for elections to take place no later 
than February 2015 and specified that members of the 
transitional government are ineligible to run. We are deeply 
concerned that the Transitional President Djotodia has taken 
steps to consolidate his power by inserting up to 5,000 Seleka 
fighters into the security forces and by delaying the 
appointment of independent experts to the national electoral 
authority.
    Given the grave situation in Central African Republic and 
the need to see the situation firsthand, I hope to travel there 
at some point soon. Currently our special adviser is in CAR.
    Senator Coons, Ranking Member Flake, members of the 
committee, let me assure you that we remain deeply engaged at 
the highest level with the situation in CAR. We are working 
closely with our international partners to address the crisis 
and we look forward to keeping you and other members of the 
committee informed of our activities, and we look forward to 
additional support.
    I am glad to answer any questions you might have and I look 
forward again to briefing you on the situation as we continue 
to get information.
    [The prepared statement of Ms. Thomas-Greenfield follows:]

   Prepared Statement of Assistant Secretary Linda Thomas Greenfield

    Thank you very much Chairman Coons, Ranking Member Flake, and 
members of the committee for the opportunity to testify before you 
today on this urgent matter. We are deeply concerned by the horrific 
violence across the Central African Republic (CAR), particularly the 
increasingly sectarian nature of the attacks on civilians. We are 
working closely with the United Nations Security Council, the French, 
other EU countries, and our African partners to support efforts to end 
the violence and restore security, rule of law and democratic 
governance to the CAR.
    In September, the violence that has gripped CAR since the Seleka 
rebellion began last December took an alarming turn for the worse. 
After 10 months of abuses by the largely Muslim Seleka fighters, 
Christian self-defense militias, known as ``anti-balaka,'' meaning 
``anti-machete,'' formed and began to attack both Seleka fighters and 
Muslim communities, whom they collectively blamed for Seleka's 
depredations. This dangerous dynamic of reprisals risks turning a 
country where ethnic and religious tolerance was the norm into a 
country where citizens are targeted based on their religion or 
ethnicity.
    We have publicly condemned Seleka's seizure of power and its 
campaign of rape, pillage, and killings. We also condemn the violence 
perpetrated against civilians by anti-balaka groups in recent weeks and 
months. We have publicly and privately called on CAR transitional 
authorities to end the violence and have warned them that those 
responsible for fueling and engaging in violence and human rights 
violations would be held accountable. Ambassador Power delivered this 
message directly to Transitional President Djotodia in a telephone 
conversation on December 7. So that the international community can 
investigate and then hold accountable those responsible, we supported 
the U.N. Security Council's establishment of an arms embargo, a 
Sanctions Committee and a Panel of Experts, authorization of a 
Commission of Inquiry, an increase in the human rights monitoring 
capacity of the U.N. Political Office in CAR, and cosponsored the U.N. 
Human Rights Council resolution creating an Independent Expert position 
for the Central African Republic. The Council also expressed its strong 
intent to swiftly consider imposing targeted measures, including travel 
bans and assets freezes on those responsible for the violence and 
abuses in CAR.
    To immediately stem the violence, we strongly supported the U.N. 
Security Council's authorization of a 1-year Chapter VII mandate for 
the African Union-led International Stabilization Force in the Central 
African Republic (MISCA), and for an expanded French troop presence in 
support of MISCA. Because MISCA draws on the existing 2,500 troops in 
CAR under the MICOPAX regional peacekeeping operation, we believe 
MISCA, working closely with French forces, provides the most immediate 
mechanism for ending the violence. In addition, we believed MISCA's 
more robust stabilization mandate is what is needed now to confront and 
disarm the armed groups. Senior officials from the State Department and 
our ambassadors in the region have engaged with the leaders of African 
troop contributing countries to urge them to encourage their troops to 
be proactive in protecting civilians in CAR. To give these forces their 
best chance of success on the ground, we are providing them equipment, 
strategic airlift, and predeployment training, the EU is expanding 
logistics support, and the French have advisors in the field.
    We recognize the situation on the ground is subject to change and 
that the international community needs to start planning for those 
contingencies now. For this reason, we fully supported the U.N. 
Security Council resolution requesting the U.N. Secretary General 
undertake ``expeditious contingency planning for the possible 
transformation of MISCA into a U.N. peacekeeping operation.'' We will 
consult closely with you if it appears that such action may become 
warranted.
    We are coordinating closely with the French, who have deployed 
1,600 troops in CAR in support of MISCA. French and MISCA troops are 
engaged in the dangerous mission of disarming armed groups; 
regrettably, France and the Republic of the Congo have already suffered 
casualties.
    We have acted quickly to support the French and MISCA deployment. 
On November 20, Secretary Kerry announced that the State Department, 
pending congressional notification, would provide $40 million in 
assistance to MISCA troop contributors from existing resources. On 
December 10, the President delegated authority to Secretary Kerry to 
direct the drawdown of up to $60 million in defense article and 
services from existing Department of Defense resources in order to 
provide immediate military assistance for France, the AU, and countries 
contributing forces to MISCA. Together, these resources will fund 
airlift support, nonlethal equipment, training, logistics, and planning 
support to MISCA troop contributors. To expedite the deployment of 
MISCA forces on December 12, Secretary of Defense Hagel authorized 
military transport aircraft to carry troops from Burundi--a new MISCA 
troop contributor with deep experience in peacekeeping and 
stabilization--to CAR. The deployment of the Burundian troops is 
ongoing and should be completed this week.
    Because of the dangerous sectarian tensions in CAR, we have 
actively reached out to local radio stations and other media to 
encourage them to transmit messages from Christian and Muslim religious 
leaders urging peace and reconciliation. President Obama recorded a 
statement to the people of CAR on December 9 in which he urged them to 
reject violence and look toward a future of security, dignity, and 
peace; the message has been translated into Sango and played on 
multiple radio stations throughout CAR. The State Department is also 
working with Voice of America (VOA) to produce a radio program 
featuring American and Central African religious leaders to convey 
those same messages and to be broadcast on VOA and local radio 
stations. U.S. Special Envoy to the Organization of Islamic Cooperation 
(OIC), Ambassador Rashad Hussain, used his participation in the 
December 10 OIC Ministerial to urge Islamic leaders to be proactive in 
passing messages to their followers in CAR to refrain from violence. 
Ambassador Hussain's call for peace and reconciliation was reiterated 
in a message from the OIC Secretary General, who condemned the 
intercommunal violence and called for peace between CAR's Christian and 
Muslim communities.
    We are continuing to provide humanitarian assistance to those 
displaced within CAR and to CAR refugees in neighboring countries. The 
humanitarian situation in CAR is dire as CAR's population of 4.6 
million; 2.8 million are in need of emergency assistance. There are now 
more than half a million people internally displaced, including over 
189,000 people displaced in the capital Bangui due to the violence in 
early December. Additionally, over 222,000 CAR refugees are residing in 
neighboring countries, including 69,000 who fled CAR in the year since 
the Seleka rebellion began.
    We are working hard to respond to the most urgent humanitarian 
needs. In FY 2013, the U.S. provided more than $24 million in 
humanitarian assistance to CAR, with $6.2 million in additional 
assistance announced in September to assist new CAR refugees in 
neighboring countries. Currently, with U.S. support, humanitarian 
agencies and NGOs are conducting protection activities and delivering 
health services, food, emergency relief items, and nutrition 
assistance. We continue to coordinate with other donors and our U.N. 
and NGO partners to assist those most in need and encourage quick 
deployment of experienced personnel and resources to address the 
challenges on the ground.
    While our initial focus has been on ending the violence and 
improving security, even as we seek to provide urgent humanitarian 
assistance, CAR's medium- and long-term stability depends on a 
political transition process that can lead to credible elections and a 
legitimate democratic government. We are deeply concerned that 
Transitional President Djotodia has taken steps to consolidate his hold 
on power. Of most concern was his decision to assign his Seleka 
fighters as the commanders of 10 of 12 military regions of the country, 
and his program to train and insert up to 5,000 Seleka fighters into 
the armed forces, police, gendarmerie, and presidential guard. We, as 
well as other members of the international community, have told 
Transitional President Djotodia that this plan is not consistent with 
U.N. Security Council Resolution 2121, which calls for professional, 
balanced, and representative CAR security forces.
    We are also deeply concerned that Transitional President Djotodia 
will not follow through with his commitment to hold elections by 
February 2015. We continue to insist that the CAR transitional 
government abide by the N'Djamena Declaration and the interim 
constitution, which call for elections to take place no later than 
February 2015, and specify that members of the transitional government 
are ineligible to run. Djotodia has already delayed preparations for 
the elections, including by failing to appoint members to the National 
Electoral Authority and the High Council on Communications, which 
regulates media access during elections. In November Republic of the 
Congo President Sassou-Nguesso, who has led the mediation efforts in 
CAR, publicly expressed his strong opposition to any delay in the 
elections and his adamant opposition to members of the transitional 
government running as candidates in those elections. We will continue 
to coordinate closely with the region, the African Union, the U.N., and 
donors in support of the electoral process.
    Given the grave situation in the Central African Republic, and the 
need to see the situation firsthand, Ambassador Samantha Power and I 
hope to travel there very soon.
    Senator Coons, Ranking Member Flake, and members of the committee, 
let me assure you that we remain deeply engaged with our international 
partners to address the crisis in CAR. We look forward to keeping you 
and the committee informed of our efforts. I hope that this information 
is helpful to the committee. I am glad to answer any questions you 
might have.

    Senator Coons. Thank you very much, and thank you for your 
personal engaged leadership on this vital issue.
    Assistant Administrator Gast.

  STATEMENT OF EARL GAST, ASSISTANT ADMINISTRATOR FOR AFRICA, 
UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, 
                               DC

    Mr. Gast. Chairman Coons and Ranking Member Flake, thank 
you for the opportunity to be here before you. I appreciate 
your involvement in drawing attention to the crisis in the 
Central African Republic and look forward to a continued 
discussion on U.S. Government engagement.
    Great, we have the map loaded. Before I begin, I would like 
to draw your attention to this map that is on the screen. It 
depicts the geography and the frequency of conflict in the CAR. 
Senators, I would like to introduce a copy of this map into the 
formal record.
    Senator Coons. Without objection.
    Mr. Gast. The areas in the northwest and around Bangui have 
to date experienced the greatest violence and are in desperate 
need of humanitarian assistance. Prior to the most recent 
Seleka attacks, aid groups had a very limited presence in those 
areas and targeted attacks against humanitarian workers have 
further limited our response capacity. Overcoming the 
operational constraints in these areas will take a significant 
amount of time and human and financial resources.
    This is arguably the worst crisis in the CAR's history. As 
of this week, 680,000 Central Africans had fled their home. 
That is 150,000 more than U.N.'s December 9 estimate. Moreover, 
an estimated 535 persons have been killed just within the last 
2 weeks due to the violence. If unaddressed, this conflict 
threatens to result in further significant loss of life and 
continued political instability threatens to destabilize the 
entire region.
    However, we still have the chance to stop it. The United 
States has been playing a critical role in shaping the 
international response to the crisis and we are ready to lead 
additional efforts that build on our current humanitarian 
platform. Since 2011 we have provided more than $68 million in 
humanitarian assistance to the CAR. In 2013 our programs 
benefited 430,000 Central Africans in basic nutrition, in 
health, protection, livelihoods, water sanitation, and hygiene, 
and agricultural assistance, as well as funded U.N.-led 
logistics and coordination. Our USAID partners also continue to 
assist those affected by the LRA in the southeast of the 
country.
    However, due to the scale of underdevelopment in CAR, 
limited access, and the volatile situation on the ground, the 
international community has not been able to meet all 
humanitarian needs. Insecurity hinders full deployment of our 
teams and some NGO, U.N., and government facilities have been 
looted or destroyed. In addition, logistical constraints have 
greatly increased the cost of humanitarian interventions. 
Transporting supplies from Cameroon by road and by air is 
extremely expensive and the widespread violence has dispersed 
the majority of the population into hard to reach rural areas.
    This complex and fluid situation requires creative 
programming options to reach the dispersed populations. We are 
working with our implementing partners to find a balance 
between expanding assistance into conflict areas and reducing 
the risk to humanitarian actors and beneficiaries. We are also 
examining ways to prevent the emergence of new conflict. If 
French and the African Union peacekeepers are able to improve 
the security situation, USAID hopes to increase local peace-
building efforts, amplify the peace messages of religious and 
community leaders, and support radio stations in areas 
suffering from a lack of information.
    In the coming months, the international community will have 
an enormous and challenging role to play in the CAR's political 
transition process. But for now our focus is to reach those in 
need and save lives. Without the international community's 
urgent and committed intervention, this already alarming crisis 
threatens to continue its downward spiral and expand the reach 
of devastation well beyond the borders of CAR.
    Thank you, members of the subcommittee, for facilitating 
our assistance and for your support to the people of the 
Central African Republic. I welcome any questions you might 
have.
    [The prepared statement of Mr. Gast follows:]

        Prepared Statement of Assistant Administrator Earl Gast

    Chairman Coons, Ranking Member Flake, and members of the 
subcommittee, I thank you for the opportunity to speak with you today. 
I appreciate your involvement in drawing attention to the crisis in the 
Central African Republic (CAR) and look forward to a sustained 
discussion on the U.S. Government's engagement.
    Since its independence from France in 1960, the CAR has been one of 
the poorest, most unstable countries in the world. According to the 
United Nations Development Program, its indicators in health, 
education, gender equality, income, and trade measure not only well 
below global averages but even remarkably below the standard for ``low 
human development.'' Successive autocratic governments punctuated by 
political instability and conflict have only exacerbated the effect of 
poverty on Central Africans.
    It is in this context that the current crisis developed and because 
of this context that the emergency in the CAR has rapidly escalated and 
stymied the delivery of assistance to those most affected by it.
    Since the Seleka rebel alliance seized power by overthrowing long-
time President Francois Bozize in March 2013, the group has killed, 
kidnapped, and raped hundreds; forcibly enlisted as many as 6,000 child 
soldiers; and engaged in widespread looting. Largely drawn from the 
CAR's 15 percent Muslim minority, the Seleka alliance has increased its 
ranks from 4,800 to roughly 18,000 soldiers in part by incorporating 
Chadian and Sudanese mercenaries and preying on uneducated youth. In 
response, some Christian and other non-Muslim communities have formed 
``anti-balaka'' self-defense groups, which have retaliated and further 
escalated tensions. While Christians and Muslims have a history of 
peaceful relations in the CAR and the roots of conflict are in an 
imbalance of power, resources, and governance, the violence we have 
seen in recent weeks is taking a dangerous new turn toward deliberate 
attacks against civilian communities along religious lines. This 
increasingly sectarian violence and the retaliatory cycle of killing 
now underway has the potential to grow much worse, with mass atrocities 
emerging as a real possibility.
    According to the U.N. Office for the Coordination of Humanitarian 
Affairs, as of December 9, one in ten Central Africans--533,000 
people--had fled their homes; one in five--1.1 million people--do not 
have enough food to eat. If unaddressed, the humanitarian crisis 
threatens to result in a significant loss of life; continued political 
instability in the CAR threatens to destabilize the subregion and 
potentially allow violent extremist groups to occupy ungoverned spaces 
in the north, in addition to elements of the Lord's Resistance Army 
(LRA) already present in the southeast. It is arguably the worst crisis 
in the country's history; on November 26, United Nations Deputy 
Secretary General Jan Eliasson said that the CAR is ``descending into 
complete chaos before our eyes'' and presents a ``profoundly important 
test to our international solidarity and our responsibility to prevent 
atrocities.''
    The U.S. Embassy in Bangui suspended operations in December 2012 
due to instability and evacuated all U.S. personnel. Nonhumanitarian 
assistance to the central government has been restricted as a matter of 
policy, with exceptions for civilian protection, health, 
antitrafficking in persons, and forestry and biodiversity. Additional 
restrictions on our economic and security assistance to the CAR 
Government also apply.
    Despite these constraints, the United States continues to play a 
role in shaping regional and international responses to the crisis, and 
USAID is poised to lead additional humanitarian, peace-building, and 
conflict mitigation efforts that build on our current humanitarian 
platform.
    As President Obama has said, preventing mass atrocities is a core 
national security interest and a core moral responsibility. Although 
the CAR continues to slide closer to the brink of catastrophe, we still 
have the chance to help prevent it. Accordingly, the U.S. Government is 
identifying funds to support immediate violence prevention and conflict 
mitigation programs, among other options.
    USAID is expanding the provision of humanitarian assistance to 
respond to the most urgent health, nutrition, protection, food 
security, and logistical needs in areas affected by instability. Since 
FY 2011, the U.S. Government has provided more than $68 million in 
humanitarian assistance to populations in conflict-affected areas 
through small-scale, targeted programs in accessible areas of CAR. In 
FY 2013, USAID and State Department's Bureau of Population, Refugees, 
and Migration supported not only programs in basic nutrition, health, 
protection, livelihoods, water, sanitation, hygiene, and agricultural 
assistance, but also U.N.-led logistics and humanitarian coordination 
mechanisms. In addition, the U.S. Government and our partners also 
continue to assist those affected by the LRA in the southeast, and NGOs 
working in that region have reported that our presence and that of the 
African Union Task Force has prevented Seleka fighters from moving into 
southeast CAR. U.S. Government partners are also working to protect 
wildlife and biodiversity in the southwest to prevent income from 
poaching from falling into the hands of armed groups.
    On November 10, a USAID-facilitated air shipment of UNICEF relief 
supplies arrived in Bangui. The commodities included 12,000 fleece 
blankets, 800 kitchen sets, 12,000 mosquito nets, 240 plastic mats, and 
more than 5,300 plastic sheets--collectively supporting an estimated 
170,000 people in the northwestern CAR, one of the areas hardest hit by 
the conflict.
    Due to the scale of underdevelopment, limited access, and the 
volatile security situation, the international community is not able to 
meet all humanitarian needs. Insecurity hinders full deployment of 
humanitarian teams in the field. Humanitarian capacity was already 
limited in the worst-affected areas of the northwestern CAR prior to 
the conflict, and following attacks on humanitarians, operational 
capacity remains low. Some NGO, U.N., and government facilities have 
been looted or destroyed. Without sufficient security, many agencies 
are reluctant to restart robust operations. At the same time, there is 
an acute lack of local capacity. The escalation in violence has driven 
many of these personnel to congregate in the capital or flee the 
country. The recent designation of the situation in the Central African 
Republic as a Level 3 emergency--the highest level--will help encourage 
U.N. humanitarian agencies and NGOs to quickly identify and allocate 
necessary resources to address the ongoing crisis.
    Logistical constraints and security concerns greatly increase the 
cost of scaling up humanitarian interventions. Transporting supplies 
from Cameroon by road and by air is extremely expensive, and the 
widespread violence has dispersed the majority of the displaced into 
the bush, creating additional challenges for the delivery of aid. The 
international community is working to identify and implement creative 
solutions to the delivery of humanitarian assistance in CAR.
    USAID is making a concerted effort to reach the CAR's most 
vulnerable people and to reduce the risk of violence by limiting mass 
congregation for aid distribution. The targeting and looting of 
humanitarian actors requires low-profile partner responses with 
creative programming options to reach the dispersed populations. We are 
working with our implementing partners to find a balance between 
expanding assistance into conflict areas and reducing the risk to 
humanitarian actors and beneficiaries.
    Increased conflict and widespread lawlessness resulted in mounting 
protection risks, including indiscriminate civilian killings, gender-
based violence, arbitrary detentions, and the recruitment of child 
soldiers, among other violations. We are alarmed by reports of 
increasing numbers of unaccompanied children--who are vulnerable to 
forced conscription into armed groups. USAID has partnered with UNICEF 
to implement child protection programs in internally displaced persons 
sites throughout Bangui, including identifying separated and 
unaccompanied children, referring vulnerable children to services, and 
providing psychosocial support. Ultimately, a drastic improvement in 
civilian protection is essential for preventing atrocities and saving 
lives.
    In addition to addressing critical needs, we are also examining 
ways to prevent the emergence of new conflict. If French and African 
Union peacekeepers are able to improve the security situation, USAID 
hopes to take advantage of that window of opportunity to increase local 
peace-building efforts, amplify the peace messages of national, 
religious, and community leaders, and support community radio stations 
in areas suffering from a lack of information.
    Additionally, close coordination between the U.S. Government and 
other donors, primarily the European Union (ECHO) and the United 
Kingdom (DFID), can facilitate targeted interventions to address the 
most critical needs and hopefully elicit greater impact. To enhance 
this collaboration, the State Department and USAID are participating in 
the European Union--hosted ``Friends of CAR'' working group, which 
serves as a platform for interaction and coordination among donors who 
are funding, or considering funding, activities in the CAR.
    In the coming months, the international community will have an 
enormous role to play in the political transition process established 
in the Libreville Agreements, N'djamena Declaration, and the Interim 
Charter that calls for elections by February 2015 and precludes members 
of the current government from running as candidates. The citizens of 
the CAR will need to view the electoral process as credible to prevent 
further violence or disruptions to the political stability that is the 
goal of the transition. The transitional authorities and the 
international community will need more information about the technical 
requirements needed to successfully organize the elections before 
deciding how best to support a credible process. USAID will continue to 
assess what programming in support of elections and the political 
transition it may be able to support as the security situation evolves.
    For now, however, USAID's focus is to reach those in need and save 
lives. Without the international community's urgent and committed 
intervention, this already alarming crisis threatens to continue its 
downward spiral and expand the reach of its devastation well beyond the 
borders of the CAR.
    Thank you Mr. Chairman, Ranking Member Flake, and members of the 
subcommittee for facilitating our assistance to the Central African 
people. I welcome any questions you might have.

    Senator Coons. Thank you, Assistant Administrator Gast, and 
thank you for your long and effective engagement in relief work 
in Africa and around the world.
    Let me start, if I might, what will be 7-minute rounds of 
questions. First, if you might just broadly, so what specific 
actions can the United States Government take next that will 
help end the humanitarian suffering, restore some security, and 
move CAR toward a sustainable path of democratic governance? 
What are the most important next steps we should be taking, 
Madam Secretary?
    Ms. Thomas-Greenfield. I think the most important steps to 
take are the steps we are taking right now to address the 
security issues, because without addressing those security 
issues we will not be able to move forward on addressing the 
more important human rights issues, as well as the humanitarian 
issues that we are all witnessing and we are all horrified by.
    So we are working to move as fast as we can to provide 
airlift and training to the troop-contributing countries. 
Burundi, as I mentioned, we provided that support this week and 
hopefully they will have about 850. We are working with the 
French to provide them with additional assistance as well, and 
other countries that have made an offer to contribute troops.
    Once that is done, I think we can then focus on trying to 
find a political solution, working to make sure that there is 
disarmament as well as finding mechanisms to work with the 
various authorities to get them to prepare for the election 
which we hope to take place in 2015.
    Senator Coons. Thank you.
    Assistant Administrator Gast, what is the critical next 
step beyond the security stabilization in terms of humanitarian 
relief?
    Mr. Gast. Security is always first. With security, we will 
then be able to gain access. I think the United Nations has 
taken a very, very important step just within the last week, 
and that is announcing that it has upgraded the emergency 
attention on CAR by declaring it a Level 3 response. At any 
time in the world, the United Nations can manage only three 
Level-3 crises. CAR would be the third one, Syria and the 
Philippines being the other two.
    What that means is that they will have a very experienced 
person at the assistant secretary general level in CAR to run 
the humanitarian operation. It also gives them the ability to 
tap in emergency response mechanisms, and it will also get 
elevated attention throughout the United Nations. We feel that 
this is critical and we commend the United Nations for taking 
that action.
    Then of course, because the needs are growing we will need 
additional resources, we collectively, the international 
community, to support those people in need.
    Senator Coons. Let us focus, if we might, on the U.N. role 
and where it might go in terms of security. What are the 
funding and policy considerations the United States analyzing 
with respect to potentially transitioning MISCA from an AU to a 
full U.N. operation, and are there lessons learned from U.N. 
operations in Somalia or Mali or DRC that are relevant and 
potentially being applied to peacekeeping and CAR?
    Ms. Thomas-Greenfield. I think the most important lesson 
for us is that we have to act quickly. It does not matter 
whether it is a DPKO in the initial phases. We think right now 
getting MISCA up and running, building their capacity on the 
ground, is the fastest possible means of addressing the 
security concerns. So we are focusing our attention on getting 
the troop-contributing countries on the ground, making sure 
that they are well trained, that they are well equipped, and 
then getting them outside of the capital.
    Our view is that if this is successful, that is our goal, 
to stop the fighting. I think if it is not successful and we 
are not able to do it under MISCA, then we have to move to a 
DPKO and upgrade the number of troops that we have on the 
ground. But what we have on the ground now is what we have to 
work with. It is fast. If we had moved to a DPKO it would take 
us months to actually get on the ground. So the United Nations 
has the authority to start the planning for a DPKO, but in the 
meantime we are moving forward on addressing the security 
issues with MISCA.
    Senator Coons. If I might, for both of you, two questions. 
What are the repercussions for regional spillover? What are the 
regional repercussions here in terms of interests? Chad in 
particular appears to be playing a fairly prominent role, but 
President Idriss Deby's objectives are unclear and Chad is 
viewed I think with suspicion by many in CAR.
    Then my last question will be, What role has the Atrocities 
Prevention Board played within the U.S. Government in terms of 
elevating the level of focus and priority being paid to the CAR 
issues, and then what does that tell us about APB and its role 
going forward?
    Ms. Thomas-Greenfield. It is clear that all of the regional 
neighbors of CAR have some interests and we do not know exactly 
what those interests are and what roles they will be playing. 
Chad in particular, we understand that a number of the Seleka 
troops came out of Chad. Many of them were ex-combatants, not 
necessarily attached to the government. But we do think that 
President Deby can play a role in monitoring his border and 
also controlling the activities of people crossing the border 
from Chad.
    Again, we have also seen that some of the Seleka troops 
came out of Sudan. Many of them were some of the ex-Darfur 
rebels, and it is important that, again, we control the access 
that they have across the border into CAR.
    That said, it is really important that the regional 
partners play a role in finding a solution. I think both Chad 
as well as Congo Brazzaville have played a positive role in 
helping to address the issues, particularly as part of the 
N'Djamena Declaration. So we are hopeful that, working with 
them, we can move forward in finding what is going to be a 
long-term political solution.
    Senator Coons. Thank you.
    Assistant Administrator Gast, regional interests?
    Mr. Gast. With regard to spillover effects, one thing that 
we are beginning to see is an increase in the number of 
refugees. So those refugees could have a destabilizing effect 
on other countries and their ability to provide services, even 
with U.N. support, to the people.
    So right now the number of refugees from CAR is roughly 
about 70,000, more than half in the DRC. But with the growing 
displaced population, the IDPs within CAR--and as I mentioned, 
it grew by more than 100,000, 150,000, in just a week's time--
it could have further destabilizing effects on other countries.
    You also, Senator, asked the question about the Atrocities 
Prevention Board, and perhaps my colleague will say something 
about that. But it is an interagency process. There are 10 or 
11 agencies that participate. It is a very good way of sharing 
information and collectively coming up with an understanding of 
the problem and just drawing on the strengths of various 
agencies, whether it is analytical or programming, coming up 
with a comprehensive approach to how we are dealing with human 
rights abuses and atrocities.
    So the APB has come up with a number of recommendations 
with CAR and, as we are trying to pursue gaining additional 
resources from some of the contingency funds, we are looking at 
some very good, sound, peace-building efforts at the community 
level, getting information out to communities through community 
radio, as well as other peacekeeping activities. And that is 
from the knowledge and wealth of all the agencies that have 
participated in the Atrocities Prevention Board.
    Senator Coons. Thank you.
    Madam Secretary.
    Ms. Thomas-Greenfield. If I could just add briefly to that. 
I think the Atrocities Prevention Board gave us the tools to 
come together as an interagency and in fact gave us a lot of 
direction as we looked at the human rights needs and looked at 
the situation there. The APB has been particularly focused, as 
my colleague mentioned, on developing communications strategies 
to ensure that messages that relate to interreligious tolerance 
from the United States as well as from voices in CAR, as you 
noted in your video there, and religious leaders are widely 
disseminated in CAR, especially by radio.
    But we looked at all kinds of mechanisms. We have used VOA, 
we have used text messaging to the extent that that works. 
Certainly the decision to have the President make a statement 
that is being widely heard in CAR came about as a result of our 
actions on the Atrocities Prevention Board.
    Senator Coons. Well, I am glad to hear that the APB has 
played a very constructive and sort of all-of-government role 
here in elevating the crisis and in finding solutions to it so 
far.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for your testimony.
    You mentioned, I think both of you, and rightly so, that 
the first priority is security. Before getting back to 
agriculture or anything else, just stem some of the 
humanitarian crisis. But our ability to help with security 
there I would think depends on what the players see in the 
future in the next year. Along those lines, some have raised 
the question of whether or not the interim President, Djotodia, 
if he has any incentive to work toward a democratization, 
elections next year or in 2015, if he is not going to be a part 
of it.
    That, let us face it, has impacts on how willing he is to 
cooperate. Some have said that he was really kind of forced 
into this agreement by--well, we know he was--by the regional 
powers and others. But can we move forward on that basis and 
that security arrangement? Is it likely that he will be 
willing, he and those around him, to step back at that time and 
to have a secure situation leading up to that time? Can you 
address some of the political possibilities?
    Ms. Thomas-Greenfield. I think we do question his 
commitment to honoring the agreement, and some of the actions 
that he has taken most recently really give us reason to pause. 
His decision to put in Seleka troops into key locations, his 
decision not to name the members of the national election 
board, his decision to fire ministers without consulting with 
the Prime Minister, are all actions that raise for us concerns 
about his commitment.
    We are continuing to put pressure on him to honor the 
commitments made in the N'Djamena Accord, and he has been told 
in no uncertain terms both when he had his conversation with 
Ambassador Power, but also in his conversations with the 
French, that he will be held accountable if he does not move 
the process forward.
    Senator Flake. What does that mean? Be held accountable to 
whom?
    Ms. Thomas-Greenfield. I think to the international 
community, for committing gross human rights violations, not 
contributing to the process that will lead to peace. I think 
when we say that they get the message of what that means, and I 
think at some point we might have to question whether he 
continues in the role that he is playing. But I think the 
international community, along with the regional partners, will 
hold him accountable.
    Senator Flake. Well, thanks. My concern is being held 
accountable for somebody who worries about being held 
accountable after this episode and after the democratic 
government comes in might be more inclined to try to 
consolidate his own power.
    Ms. Thomas-Greenfield. And I think that is what he is 
doing.
    Senator Flake. Yes, that seems to be so. I am not saying 
that we are pursuing the wrong policy there at all. It just 
makes it doubly difficult, I think, in the current situation.
    With regard to the weapons that are there and the task of 
the peacekeepers now, how have weapons proliferated throughout 
the country since the coup last year and what challenges does 
that present going forward? Are they still coming in? You 
mentioned that is one reason we need secure borders. But how 
much of a problem is that?
    Ms. Thomas-Greenfield. It is a huge problem. We do not know 
where the weapons are coming in from. We hope that the panel of 
experts will give us some insight on where these weapons are 
coming from. We know they are coming from across the border. 
Who is funding the weapons purchases, it is unclear, and this 
is something that we are all trying to get a handle on, so that 
again under the U.N. resolution people can be held accountable 
for that.
    Senator Flake. Is this a matter--I know it is not this 
simple, but the Seleka forces probably have most of the 
weapons, but the militias, on the other hand, probably have the 
numbers; is that a rough estimation? Or are there weapons on--I 
am sure there are a lot of weapons on each side, but is there a 
big difference in who has the weapons at this point?
    Ms. Thomas-Greenfield. I think there are weapons on both 
sides. I do not know what the balance is, but as the French 
have gone in to disarm we are seeing that when they have 
disarmed Seleka that some of the anti-Seleka people actually 
have weapons and have attacked using those weapons. But that is 
something that we need to investigate and it is why it is so 
important for us to be on the ground for there to be security 
so that we can address those issues.
    Senator Flake. The death of two French troops just in the 
last couple of weeks, how has that affected the French 
Government's ability? Has it hardened their resolve or has it 
made the people more skittish about involvement? What is your 
read there?
    Ms. Thomas-Greenfield. I think it has hardened their 
resolve. We regret the death of the French soldiers as well as 
Congolese soldiers who were killed. But I think it really has 
hardened their resolve to pursue this mission to a positive 
conclusion.
    Senator Flake. Back on the humanitarian issues, there is a 
lot of agriculture that is being disrupted. Administrator Gast, 
can you address that? Is that something that, with what is 
going on now, is there going to be a lag time because certain 
crops were not harvested or were not planted, that we are going 
to have a disaster in the future? Or how do you address that? 
That is really--it is a lot of subsistence agriculture, we 
know.
    Mr. Gast. You are absolutely right, Senator. About 55 
percent of GDP comes from agriculture and it is the largest 
employer in the country of Central Africans. So we are very 
concerned, and we know that the violence has broken the 
traditional cycle of how people get inputs and how they provide 
their products to the market. We expect that that will be part 
of the assessment that takes place, but I have not seen any 
numbers come out on specifically the loss of productivity in 
agriculture.
    At a macro level, the GDP is expected to contract by 10 
percent this year as a result of the conflict. But we know that 
it is going to be primarily in the agricultural sector.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    Madam Assistant Secretary, we know you have other pressing 
commitments, and if we might thank you for your testimony. We 
both look forward to being briefed on more details when you 
have them about the basis on which we could build stability and 
a transition toward a democratic state and deal with the 
humanitarian crisis.
    So thank you very much. If you do not object, we will 
continue to question the Assistant Administrator. But I know 
that we are now at the time when you really needed to leave.
    Senator Flake. Thank you.
    Senator Coons. So we are very grateful you were willing and 
able to testify before us today.
    Ms. Thomas-Greenfield. Thank you very much.
    Senator Coons. Thank you.
    Assistant Administrator Gast, if I might, just following up 
on some of the questions that Senator Flake was asking. Are 
there community-based, viable community-based efforts under way 
to stop this cycle of intercommunal violence? And in the 
absence of stopping the violence, will the humanitarian crisis 
accelerate further in terms of food insecurity, hunger? Are we 
at real risk of this spiraling into a dramatically larger 
conflict within CAR or regionally?
    Mr. Gast. I think you are right, we are at risk of it 
spiraling out of control. Senator, with your support actually, 
we have in the southeastern part of the country supported what 
we call our secure communities program that we are implementing 
with the organization CRS. Essentially, these communities have 
been affected by the LRA over a period of years, whether it is 
attacks on communities, abductions of children, men living in 
communities. It is an early warning system as well as it 
provides an early warning system to them to communicate to 
other communities about threats, as well as to the United 
Nations; and then also it helps them draw up plans for the 
communities to stay safe.
    Also included in that is community-based radio as well as 
peace messaging, so that the communities feel safe with one 
another. We think that that is a good model and it is something 
that we would like to expand on and support in other places.
    But as we talked about before, security is absolutely 
critical. There was supported through other development 
programs in the country a network of community-based radio 
stations. Because of the violence, that has been disrupted. 
Many have been looted and are no longer functioning. So we hope 
to reinstate those, because they are critical on both the 
security side as well as the humanitarian side in informing 
communities and humanitarian workers where the problems lie.
    Senator Coons. The CAR Government, the transitional 
authorities, are desperate for resources for reconstruction, 
for transitional tasks. But as long as there is no legitimate 
government or functioning institutions and security, major 
donors are understandably hesitant to commit any significant 
sums for government operations. How can we break this 
particular Catch 22 and what path forward do you think there is 
for building some platform on which to develop a real state in 
CAR, where at this point there is barely even a legitimate 
government or security function?
    Mr. Gast. In 2012 the government began to undertake some 
reforms for CAR. Actually, some of the reforms were pretty 
impressive. It led to an extended credit facility on the part 
of the IMF. The World Bank and also the African Development 
Bank provided some lending. But since the change in power those 
programs have ended. So they are certainly feeling the squeeze 
at the central government level of not having resources.
    I think there are three steps. One is immediately address 
the humanitarian crisis. That will continue, but it needs to be 
addressed. The infrastructure needs to be built. Communities 
need 
to be stabilized. Services need to be provided to those who 
need services.
    The second thing is supporting the political transition. It 
is stated that the transition, meaning through elections, will 
have to occur by February 2015, but that is going to be an 
enormous challenge. Just looking at all the things that have to 
be done, from the development of a new constitution, new 
electoral law, creating a new institution, the national 
electoral administration, training, a voter registry, that is 
an enormous task.
    But I do not think that the development resources will come 
in until we see the transition, the political transition down 
the road.
    Senator Coons. Well, thank you.
    Do you have any further questions, Senator?
    Senator Flake. No, I am good.
    Senator Coons. Well, Assistant Administrator Gast, we are 
grateful both for your testimony today and for your intense 
interest in the region and in this particular area. If I might 
just in closing ask one last question. Beyond the humanitarian 
relief and the establishment of security, CAR is going to need 
significant international support for the political transition, 
governmental institutions. What kind of support is USAID in 
particular considering, whether it is from OTI or elsewhere, 
and where do you see our key allies in terms of joining us in 
providing essential assistance, and what is the path toward 
that being sustainable?
    Mr. Gast. Good question, Senator. We are looking internally 
at the resources that we have available within the agency to 
support both the political transition as well as the emergency 
crisis. With regard to other donors, there is a donors 
conference that is being set up in January. So we see that as 
an opportunity to identify the needs and also to take stock of 
what commitments other donor countries can provide.
    Senator Coons. Thank you.
    Senator Flake. One question.
    Senator Coons. Senator.
    Senator Flake. With regards to their mining, mineral 
extraction there, we have seen elsewhere in Africa in almost 
every country China has made moves into that space. We have not 
seen that yet in the CAR; is that correct?
    Mr. Gast. We have not in terms of exports to China or any 
investment on the part of the Chinese in CAR.
    Senator Flake. So no investment there, either?
    Mr. Gast. No.
    Senator Flake. Thank you.
    Senator Coons. Thank you very much, Assistant Administrator 
Gast. We are grateful for your testimony and for your service 
and your leadership.
    I would like to invite the second panel now to join us, if 
we might.

    [Pause.]

    Senator Coons. We would like to welcome our second panel to 
this hearing. First we will hear from Ms. Alexis Arieff, the 
African analyst at the Congressional Research Service; next, 
Lisabeth List from Medecins Sans Frontieres, and Mark 
Schneider, again, from the International Crisis Group. Welcome. 
It is great to have both repeat witnesses and those who are 
with us for the first time.
    Ms. Arieff.

    STATEMENT OF ALEXIS ARIEFF, ANALYST IN AFRICAN AFFAIRS, 
   CONGRESSIONAL RESEARCH SERVICE, THE LIBRARY OF CONGRESS, 
                         WASHINGTON, DC

    Ms. Arieff. Chairman Coons, Ranking Member Flake, thank you 
for inviting the Congressional Research Service to testify here 
today.
    You have heard today about the evolution of the crisis in 
CAR. I have submitted a written statement for the record. In my 
remarks I want to highlight five key elements of the crisis and 
then conclude with a look ahead.
    First, CAR has experienced recurrent governance and 
security crises. Governments in the capital, Bangui, have 
rarely controlled vast rural areas or provided services to the 
population. That said, as you mentioned, the current situation 
in CAR is not the norm. When I was there in early 2011, the 
capital and much of the countryside was relatively stable. A 
peace process with northern rebel groups suggested that a more 
inclusive and sustainable model of governance was possible. 
Over the past year, violence and humanitarian conditions have 
worsened dramatically. The fabric of CAR's diverse society has 
also been badly damaged by recent brutal attacks along 
ethnoreligious lines.
    Second, Seleka factions and Christian self-protection 
militias do not have clearly defined memberships or clear 
chains of command. The terms ``Seleka'' and ``anti-balaka'' in 
fact appear to refer to loosely branded franchises rather than 
clearly structured networks. Some factions are likely also 
being manipulated by political aspirants and ideologues.
    Civilians meanwhile have increasingly taken up arms against 
each other in a decentralized fashion. The conflict therefore 
potentially affects the entire population of CAR and could 
easily spill over its borders. Troubles in the turbulent region 
surrounding CAR could also easily spill into the country.
    Third, external actors have repeatedly intervened in CAR in 
search of resources and leverage. CAR's territory has long been 
a destination for raiders and poachers. Chad, Sudan, Libya, and 
other countries have periodically sought to wield influence. 
Foreign troops, including from France and neighboring states, 
have been present for decades in various roles. Regional 
leaders' responses to the current crisis may therefore be 
driven in part by self-interest. In turn, CAR leaders have 
regularly appealed to outside forces for protection and 
advancement of their interests.
    Fourth, while Seleka commanders have shown themselves to be 
brutal and opportunistic, the movement has fed on genuine 
feelings of exclusion and persecution among CAR's northeastern 
population. The northeast is largely Muslim, in contrast to the 
rest of the country, where Muslims are a minority. It is also 
culturally and geographically closer to Chad and Sudan than to 
Bangui. Acting President Michel Djotodia is CAR's first Muslim 
President and the first from the northeast.
    In this context, national identity is contested. The term 
``foreigner'' in fact is often used by non-Muslim inhabitants 
of CAR to describe northeastern ethnic communities with cross-
border ties. International policymakers may wish to be 
sensitive to these dynamics so as to avoid creating the 
perception that demanding the disarmament and repatriation of 
Seleka combatants is akin to condoning the exclusion of, or 
violence against, Muslims who have been in CAR for generations. 
Such perceptions could drive Muslim civilians into supporting 
militia groups or create a narrative of anti-Muslim persecution 
that could reverberate widely.
    Fifth, the planned political transition, as you have heard 
today, is likely to be very challenging. Election preparations 
will be starting from near zero. President Djotodia appears 
likely to cling to power. Warlords and potential rivals within 
Seleka are also unlikely to simply step aside.
    The balance of power between Djotodia and other Seleka 
figures is uncertain and factional violence is possible. 
Commentary in the local press reveals sharp polarization. Some 
have welcomed international intervention, while others are 
suspicious of regional troops, particularly those from Chad 
with its complex history in CAR, and of French motivations.
    The crisis in CAR touches on a number of issues in which 
Congress has demonstrated an interest in recent years, 
including stability in Central Africa, trends in wildlife 
poaching and other cross-border criminal activity, and the 
Lord's Resistance Army, which has been present in the southeast 
since at least 2008. Looking ahead, Congress may determine the 
means and duration for any additional U.S. humanitarian aid to 
CAR, any further help for French and African troops deploying 
there, and any future support for elections, border security, 
or accountability and national reconciliation. A U.N. 
peacekeeping operation, if authorized in the coming months, 
would create new U.S. funding requirements and policy 
considerations.
    In the longer term, CAR confronts enduring governance and 
security challenges. Added to these now are questions about the 
future place of ex-Seleka combatants and the communities that 
some of them claim to represent. Repeated international efforts 
at military intervention, peace-building, and security sector 
reform in CAR have had mixed and overall limited effects.
    Finally, an ongoing debate regarding the pros and cons of 
African-led versus U.N.-conducted stabilization operations is 
at play. While neighboring states often have a front-line 
interest in addressing a crisis, their militaries are 
frequently handicapped by a lack of capacity and 
interoperability and by political rivalries and competing 
interests among regional leaders. U.N.-conducted operations are 
often better funded and vetted than African-led operations. Yet 
they can be slow to materialize, more cautious with regard to 
offensive operations, and more costly. This debate is likely to 
continue as the United States considers whether and to what 
extent to further strengthen the AU operation in CAR or support 
any future U.N. peacekeeping operation.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions the subcommittee might have.
    [The prepared statement of Ms. Arieff follows:]

                  Prepared Statement of Alexis Arieff

    Chairman Coons, Ranking Member Flake, members of the subcommittee, 
thank you for inviting the Congressional Research Service to testify 
today on the multifaceted crisis in the Central African Republic.
    I will begin by providing an overview of the situation in the 
Central African Republic, including an analysis of the escalating 
patterns of violence in recent months and the country's history of poor 
governance. I will also address the role of regional actors and the 
presence of the Lord's Resistance Army. I will conclude with an 
analysis of some of the potential policy issues and challenges facing 
Congress as you look ahead. I will provide a timeline of selected key 
events at the end.
                                overview
    The Central African Republic (CAR) is in crisis. Armed factions are 
exploiting a security vacuum after a loosely allied rebel coalition 
known as Seleka (``Alliance'' in the local Sango language) took control 
of the central government in March 2013. A transitional government led 
by a self-appointed President, a Seleka leader, appears unable, or 
unwilling, to halt the violence and human rights abuses. CAR has long 
been seen as peripheral to core U.S. policy interests. However, U.S. 
policymakers are now focused on the deteriorating humanitarian 
conditions in CAR and the potential impact of the crisis on regional 
stability. U.S., U.N., and French officials have warned of the 
potential for mass atrocities and even ``genocide.'' \1\
    Policy issues of possible interest to Congress include whether the 
planned provision of U.S. support to French and African military 
operations in CAR is appropriate and/or sufficient, and if so, what 
additional funds and/or authorities may be necessary. An ongoing debate 
at the U.N. Security Council concerns whether to authorize a U.N. 
peacekeeping operation in the coming months, which could create further 
U.S. funding requirements. CAR's security vacuum has also reportedly 
driven an increase in wildlife poaching, and could threaten U.S.-
supported regional efforts to counter the Lord's Resistance Army (LRA), 
a small but vicious militia of Ugandan origin that has been active in 
CAR since 2008. The United States supports a Ugandan-led African Union 
(AU) military operation against the LRA in CAR and neighboring states, 
including through the deployment of U.S. military advisors in the 
field.
    Seleka faction commanders, who are mostly Muslim, have overseen 
seemingly systematic attacks targeting Christian communities, leading 
to the mobilization of largely Christian militias that have, in turn, 
brutally attacked Muslims.\2\ (CAR's population of 5.2 million is 
reportedly roughly 15 percent Muslim and 85 percent Christian or 
animist. CAR's territory is slightly smaller than Texas.\3\) While 
violence along ethnoreligious lines had been relatively rare in CAR, 
complex tensions over access to resources, control of trade networks, 
and national identity are now translating into large-scale upheaval. 
Moreover, the recent pattern of militia-inspired violence has 
increasingly led civilians to take up arms against each other. Seleka 
was formally disbanded in September 2013, although with few clear 
practical implications.
    Seleka leaders mostly hail from CAR's remote northeast. This area 
is culturally and geographically close to parts of neighboring Chad and 
Sudan, where some of the movement's members and commanders reportedly 
originate. Acting President Michel Djotodia is CAR's first Muslim 
President, and the first from the northeast. While Seleka leaders 
appear to share a sense of marginalization and persecution by 
successive CAR regimes with many northerners and Muslims in CAR, they 
otherwise appear to be united by little other than their opposition to 
the former government, which they ousted in March 2013. Their 
opportunism, brutality, and internal divisions have led to a spiral of 
chaotic violence and the further collapse of an already weak state.
    Humanitarian conditions remain dire, although the full impact of 
the current crisis is difficult to assess. At least 602,000 residents 
have been displaced to date, including 69,000 who have fled to 
neighboring countries as refugees and 533,000 who are internally 
displaced.\4\ Conditions prior to the current crisis were already poor, 
due to a lack of basic health care, education, and other social 
services, as well as a legacy of past conflicts. Indeed, conflict and 
political instability have been recurrent in CAR, fed by the tendency 
of successive governments to foster narrowly based regimes more 
interested in pursuing patronage networks than in expanding state 
services and social inclusion. Seleka leaders have followed this 
pattern, for example carrying out a series of targeted assassinations 
of army officers associated with the former President earlier this 
year.\5\ Still, the current situation in CAR is not a timeless status 
quo. Violence has worsened dramatically over the past year, and has, in 
turn, severely constrained the ability of humanitarian organizations to 
provide vital services.
    The pace of violence accelerated in early December 2013, with at 
least 500 killings reported in the capital, Bangui, as the U.N. 
Security Council prepared to adopt Resolution 2127. The resolution 
authorizes an AU intervention force and the French military, which has 
long had a presence in CAR, to ``take all necessary measures'' to 
protect civilians, stabilize the country, enable humanitarian access, 
support the disarmament of militias, and contribute to security sector 
reform.\6\ Following passage of the resolution, France rapidly 
increased its troop levels in CAR from about 400 to 1,600. French 
patrols, along with civilian protection efforts by regional troops, 
have led to a decrease in violence, for now. French forces have 
directly engaged militia fighters, leading to at least two French 
casualties and, reportedly, the killing of a senior Seleka commander. 
CAR's transitional government and many of the country's beleaguered 
citizens have welcomed France's deployment. However, conditions remain 
tense and volatile.
                   a challenging political transition
    Michel Djotodia, a previously little known figure, declared himself 
President after the Seleka rebellion rapidly seized control of the 
state in March 2013, deposing President Francois Bozize.\7\ He has 
clung to that position despite initial condemnation by regional 
leaders, who subsequently agreed to recognize him as the ``head of 
state of the transition.'' Under regional and international pressure, 
Djotodia has acquiesced to a transition roadmap culminating in 
elections in early 2015, in which he cannot be a candidate.\8\ He also 
nominally shares power with Prime Minister Nicolas Tiangaye, a human 
rights activist and opposition politician who was appointed under a 
January 2013 peace accord between Seleka and then-President Bozize, 
known as the Libreville Agreements. As a member of the transitional 
government, Tiangaye is also barred from running for President under 
the Libreville framework.
    Despite this stated roadmap, the timeline for the planned political 
transition is likely to be hindered by ongoing violence, a lack of 
political will on the part of transitional authorities, and the scale 
of needed preparations. A new constitution and electoral law may be 
needed, along with new voter registration as many civic records have 
reportedly been destroyed.\9\ Based on his actions to date, Djotodia 
appears likely to seek to prolong his hold on power, while attempting 
to exercise greater influence within armed factions and state 
institutions. Warlords and potential rivals within the Seleka movement 
are also unlikely to agree to a diminution of their power or freedom of 
action. The balance of power between Djotodia and other Seleka 
figures--such as strongman Noureddine Adam, who until recently served 
as Security Minister--is uncertain, and factional violence is possible 
as the fractious coalition comes under new pressures.
                          escalating violence
    In recent months, Seleka forces and largely Christian militias 
known as ``anti-balakas'' (anti-machetes) have engaged in tit-for-tat 
massacres, threatening to create a new dynamic of violence along 
ethnoreligious lines. These events could easily spark tensions 
throughout the religiously diverse central Africa region. They have 
also created a humanitarian crisis. Local populations who have fled 
their homes in rural areas due to fear of Seleka or anti-Muslim 
violence are reportedly living in abominable conditions.\10\ CAR's 
religious leaders have sought to calm tensions, often at considerable 
personal risk. They too have come under assault in recent days, and 
French troops reportedly recently intervened to protect the national 
leader of the Muslim community from a mob.\11\
    Abuses by armed groups against civilians, including killings, 
looting, torture, and the burning of villages, have been particularly 
salient in the western region of Bossangoa and Bangui. This may be 
because Bossangoa and parts of the capital are associated with support 
for the former President, because they are particularly ethnically 
diverse, or because of Bossangoa's strategic location on the road 
linking Bangui to Chad. Still, the motivations behind the attacks 
remain largely unclear, along with the identities of many of the 
perpetrators. It is also possible that the international community is 
simply not yet aware of similar abuses in more remote locations. 
Civilians from both religious communities also appear to be 
increasingly targeting each other for violent retribution.
    The largely Christian militias that have organized in response to 
Seleka abuses appear in many cases to be community-driven, 
decentralized, and uncoordinated. However, in some cases, such as 
during a recent assault on Bangui, ``anti-balaka'' groups have 
displayed relatively sophisticated capacities and armaments, 
contributing to perceptions that they are supported--perhaps by design, 
perhaps opportunistically--by ex-military officers and/or regional 
figures who seek the return of deposed President Bozize.\12\
    President Djotodia appears unable, or unwilling, to exercise 
control over combatants associated with Seleka. In September, following 
high levels of violence by Seleka forces, Djotodia ordered the former 
rebel movement dissolved, but this has had little practical impact on 
the actions of already fractious commanders. Seleka elements are 
reportedly asserting increasing control over state resources, including 
customs revenues and mining concessions. Additional fighters, including 
from neighboring states, have reportedly self-identified with Seleka 
since March, driving its numbers up from some 4,000 in early 2013 to an 
estimated 20,000 in November.\13\ They may hope to benefit from 
government patronage or to profit opportunistically from looting and 
access to more fertile land than is available to the north.
    Some community leaders in CAR argue that the vast majority of 
Seleka combatants are foreigners from Chad and Sudan, and that there is 
a ``de facto foreign occupation'' of CAR.\14\ Yet as the anthropologist 
Louisa Lombard has documented, the term ``foreigner'' is often used by 
non-Muslim inhabitants of CAR to refer interchangeably both to persons 
from other countries and to northeastern, often Muslim and Arabic-
speaking ethnic groups with cross-border family ties.\15\ Given such 
sentiments, international policymakers may wish to be cautious in their 
use of the term ``foreign'' to refer to Seleka leaders, so as to avoid 
creating the perception that pressure to disband Seleka is an 
endorsement of efforts to expel Muslim communities that have been in 
CAR for generations. Such perceptions could drive Muslim civilians into 
the ranks of Seleka or other militias; prompt Seleka leaders to cling 
to power through violence; or create a narrative of Muslim persecution 
that could reverberate throughout the region.
    The relationship between (ex-)Seleka commanders and CAR's military 
is unclear. AU and U.N. reports suggest that much of the original army 
has either deserted or been forcibly disarmed, while some Seleka 
commanders have reportedly been appointed by Djotodia to head regional 
military units.\16\ Western and African diplomats have also expressed 
concern over reported plans by Djotodia to integrate thousands of (ex-
)Seleka elements into the defense and security forces.\17\ The armed 
forces of CAR, known as the FACA, numbered 7,000 or fewer troops prior 
to 2013--far too few to secure the countryside. The military, and 
particularly the Presidential Guard, have been implicated in abuses--
notably during a counterinsurgency campaign in the north between 2005 
and 2007 \18\--and have exhibited ethnically biased recruitment under 
successive regimes. The FACA has also been noted for its internal 
disarray and neglect. Repeated attempts at supporting security sector 
reform, including recent efforts by France and South Africa, seem to 
have had limited impact.
                      a history of poor governance
    CAR's Government has struggled to assert control over the country's 
remote and relatively unpopulated rural areas since independence from 
France in 1960. The country has long served as terrain for competition 
over resources and regional influence among neighboring states and 
national elites, as well as a hinterland for poaching and raiding by 
nonstate actors.\19\ Foreign troops, including from France and 
neighboring states, have been present for decades in various roles. 
Chad, Libya, and Sudan have periodically sought to wield influence over 
CAR governments or rebel movements to gain access to resources and 
leverage over opponents. In turn, CAR leaders have regularly appealed 
to outside forces to protect and advance their interests.
    Until the early 1990s, CAR had a series of autocratic governments. 
The most notorious was that of Jean-Bedel Bokassa, who styled himself 
an Emperor and was implicated in massive embezzlement and human rights 
abuses. He was deposed in a coup backed by French troops in 1979. In 
1993, Ange-Felix Patasse was elected President. A decade of ethnic 
tension and instability followed, including army mutinies in 1996-1997 
that led to high levels of violence and the deployment of a U.N. 
peacekeeping operation. In 2002, Patasse reportedly called on a rebel 
movement based in neighboring Democratic Republic of Congo to help fend 
off domestic insurgents, leading to large-scale abuses against 
civilians, for which the leader of that rebel movement is currently on 
trial before the International Criminal Court.\20\
    Francois Bozize, an army general, rebelled against Patasse and, 
backed by Chad, ultimately took power in 2003. Bozize's tenure brought 
relative stability to CAR for a time, along with modest donor-aided 
economic improvements. His rule was marked by successive, mostly low-
level insurgencies in the north and northeast, however, and as of 2012 
he was viewed as increasingly autocratic. His reliance on a Chadian 
security detail--and related perceptions that armed Chadians enjoyed 
impunity for abuses against civilians--reportedly contributed to local 
anger toward Muslims in general, and Chadians in particular. These 
tensions built on enduring resentment of external plundering of CAR 
resources. Such dynamics, as well as internal divisions among groups 
that had supported Bozize's rise to power, drove successive rebellions 
and noninclusive peace processes over the past decade.
    At its inception, Seleka drew on widespread frustrations with 
President Bozize. These included the concentration of power among 
Bozize's family, close associates, and members of his Gbaya ethnic 
group; extensive state corruption; and the government's inability to 
deliver tangible socioeconomic development outside of Bangui. Growing 
insecurity amid the deterioration of the army (due to lack of 
resources, among other factors), and Bozize's failure to implement 
peace accords with armed movements, also drove popular grievances.\21\ 
Reportedly flawed elections in 2011, in which Bozize was returned to 
office and a number of his family members were voted into Parliament, 
were arguably a turning point, with donors and Central Africans alike 
increasingly viewing Bozize as a problem. Significantly, Bozize also 
angered the Government of Chad by failing to crack down on Chadian 
antigovernment rebels who were using northern CAR as a safe haven. The 
International Crisis Group has pointed to an additional apparent factor 
in Seleka's rise--disaffected actors in the diamond sector who were 
reportedly fed up with state extortion under Bozize and may have 
contributed financing to Seleka leaders.\22\
                      the role of regional actors
    The Economic Community of Central African States (ECCAS), a 
subregional body, has played a front-line role in responding to the 
crisis in CAR.\23\ However, regional rivalries, divergent interests, 
and a lack of capacity may threaten ECCAS's ability to channel 
international efforts to stabilize CAR. The regional leaders involved 
in addressing the situation in CAR are among the longest serving on the 
continent, and for the most part they have cultivated authoritarian 
regimes focused on protecting their own interests. This is likely to 
drive their calculations vis-a-vis CAR. The Presidents of Chad and 
Republic of Congo have each sought to position themselves as key 
regional mediators on CAR, but they are likely to have divergent 
security and financial interests there. Chad may also be a problematic 
actor in CAR given its role in bringing former President Bozize to 
power, local perceptions that Chad's President Idriss Deby allowed the 
Seleka to seize power when he became dissatisfied with Bozize, and the 
fact that some Seleka commanders are reportedly Chadian nationals or 
have other ties to Chad.\24\ Cameroon, meanwhile, hosted former 
President Bozize when he first went into exile, and is now contending 
with an influx of refugees from CAR into its already fragile north, 
amid ongoing concerns about instability emanating from Nigeria.
    In 2012, South Africa was seen as cultivating growing ties with 
Bozize's government. This included the deployment of South African 
troops to CAR, ostensibly for bilateral security cooperation and 
assistance. Some analysts interpreted South Africa's moves as part of a 
strategy of protecting potential mineral interests, and more broadly of 
seeking greater influence in francophone Africa.\25\ They were 
therefore seen as a potential challenge to French and Chadian 
interests. South Africa withdrew its troops amid domestic pressures 
after 13 of its soldiers were reportedly killed during the Seleka 
assault on Bangui.
                    lord's resistance army presence
    The LRA presence in CAR reportedly dates to a series of cross-
border raids from Democratic Republic of Congo (DRC) in early 2008 and 
2009. CAR appears to have been used by LRA commanders as an ideal 
location for transiting through the region and procuring abductees and 
supplies, due to its remoteness, lack of an effective military, and 
location near territory familiar to the LRA in DRC and South Sudan.\26\ 
LRA activities in CAR have generally been concentrated in the remote 
southeast, an area that has not historically been considered of 
strategic importance to the central government in Bangui. However, the 
region has received increased international aid and attention since 
Ugandan troops deployed to the area to pursue LRA leaders in mid-2009. 
(The population of southeastern CAR, as in much of the country, is 
largely made up of Christian and animist sedentary farmers, with a 
minority, largely Muslim, population of traders and nomadic herders. 
The Ugandan-led LRA, while nominally drawing on a messianic Christian 
ideology, has separate origins from the current ethnoreligious violence 
in CAR.)
    The Ugandan military operation to counter the LRA has recently 
expanded into a multicountry effort headed by the African Union. Within 
CAR, the operation remains largely Ugandan-led. Nongovernmental 
organizations have surmised that LRA senior leaders are currently 
located in CAR. Recent LRA attacks have been reported west and north of 
the LRA's previous areas of activities, in the CAR provinces of Haute-
Kotto (near Sudan and South Sudan) and Mbomou (near DRC).
                                outlook
    As Congress probes the situation in CAR, you may examine the 
immediate crisis, its complex roots, and its longer-term implications. 
In the short-run, Congress plays a role in determining the appropriate 
funding levels, duration, and mechanisms of any U.S. international 
humanitarian assistance to CAR's population and any additional support 
for French and African military operations to disarm militias and 
restore stability. Much of the U.S. assistance package for regional 
military forces in CAR to date has been provided through the State 
Department's Peacekeeping Operations (PKO) account, which is already 
stretched due to its use as a primary vehicle for crisis response, 
counterterrorism, and security sector reform efforts elsewhere on the 
continent. Congress may also consider the degree to which the United 
States might assist with future elections and other elements of the 
political transition in CAR, as well as any future efforts to support 
national reconciliation and accountability for atrocities.
    Beyond questions of cost and duration, these lines of effort are 
likely to confront significant challenges. These include a complex 
operating environment for foreign troops, in which the enemy is not 
clearly defined; a lack of effective state institutions, particularly 
outside of Bangui; a deeply traumatized and increasingly divided 
society; and a probable lack of support for the planned political 
transition among CAR's currently most powerful figures. Newly 
authorized U.N. sanctions monitoring may provide valuable information 
on the role of regional actors, but acting on such information may pose 
difficult dilemmas for international policymakers, for example if 
partner states in the region are found to be implicated in abuses and/
or criminal activities. Such dilemmas have been salient, for example, 
in the Democratic Republic of Congo, Somalia, and elsewhere.
    French and African military interventions may bring a temporary end 
to tit-for-tat massacres, and could create the space for national-level 
discussions on the way forward. However, they are also likely to 
encounter difficulties in coordinating operations. African troops are 
likely to exhibit shortfalls of equipment, capacity, and financing, and 
could provoke local backlashes in some areas due to their nationality 
(e.g., association with Chad) and/or behavior. Indeed, Congress has 
restricted U.S. security assistance to several of the African states 
with troops in CAR, due to human rights concerns.
    In the longer term, CAR confronts significant governance and 
security challenges, and the internal political and military 
arrangements that could allow for greater future stability may be 
elusive. States in the region, at times supported by France, the 
European Union, and U.N. agencies, have attempted multiple iterations 
of external military intervention, peace negotiations, and security 
sector reform efforts in CAR. Policymakers may therefore examine 
various past approaches and their limitations. In Resolution 2121, 
adopted in October 2013, the U.N. Security Council charged the 
previously existing U.N. Integrated Peacebuilding Office in CAR 
(BINUCA)--a political mission, not a peacekeeping operation--with a 
range of tasks, including support for disarmament efforts. However, 
U.N. staff face significant security constraints, and the mission's 
capacity to fulfill its new mandate has yet to be seen.
    Ongoing international debates regarding the merits of primarily 
African-led versus U.N.-conducted multilateral stabilization operations 
are also at play in CAR. The international response to the security 
deterioration in CAR has a number of parallels to the debate a year ago 
over Mali--where the French military also took the lead, with U.S. 
bilateral support, while a regional stabilization force was 
deployed, and later incorporated into a U.N. peacekeeping operation. As 
observers have noted with regard to Mali, there are pros and cons to 
both African Union-conducted and U.N.-conducted peacekeeping 
operations. While neighboring states may have greater political 
commitment to resolving a crisis in their back yard, regional 
operations in Africa have also frequently been limited by a lack of 
capacity and handicapped by rivalries and competing interests.
    On the other hand, U.N.-conducted peacekeeping operations, while 
better funded and vetted to a higher standard in terms of capacity and 
adherence to human rights principles, can be slow to materialize. U.N. 
troop contributors are also often more cautious in interpreting rules 
of engagement. With some exceptions (e.g., the U.N. operation in the 
Democratic Republic of Congo), the U.N. Security Council has also 
appeared more willing to grant stronger military mandates to AU 
military interventions than to U.N.-conducted peacekeeping operations. 
The AU Mission in Somalia, for instance, has repeatedly undertaken 
robust military action to counter violent extremists, and the West 
African operation in Mali that predated the current U.N. peacekeeping 
operation was initially given a wide-ranging mandate that, unlike its 
U.N. successor, would have included counterterrorism operations. There 
were reasons specific to the Mali context that influenced this 
evolution, and it remains to be seen how the Security Council will act 
in CAR. This debate is therefore likely to continue as donors, 
including the United States, consider how, and to what extent, to 
strengthen the AU operation in CAR or support any future U.N. operation 
there.
    Mr. Chairman, this concludes my statement. I will be pleased to 
respond to any questions the subcommittee may have.

----------------
End Notes

    \1\ Principal Deputy Assistant Secretary of State for African 
Affairs Robert Jackson, testimony before the House Foreign Affairs 
Subcommittee on Africa, ``Crisis in the Central African Republic,'' 
November 19, 2013; Dow Jones, ``France's Fabius Says Central African 
Republic on Verge of Genocide,'' November 21, 2013; and U.N. Office for 
the Coordination of Humanitarian Affairs (UNOCHA) Director John Ging, 
quoted in CNN, `` `Seeds of Genocide' Sown in Central African Republic, 
U.N. Official Warns,'' November 13, 2013.
    \2\ See, e.g., Human Rights Watch (HRW), ``I Can Still Smell the 
Dead: The Forgotten Human Crisis in the Central African Republic,'' 
September 2013. As elsewhere in Africa, there have long been latent 
tensions between majority-Muslim ethnic groups, who are generally 
seminomadic pastoralists, and majority-Christian or animist groups, who 
are generally sedentary farmers. However, violence along ethnoreligious 
lines at the current scale does not appear to have occurred in the 
past.
    \3\ CIA World Factbook, 2013.
    \4\ USAID, ``Central African Republic--Humanitarian Update #8,'' 
December 12, 2013.
    \5\ HRW, ``Central African Republic: Horrific Abuses by New 
Rulers,'' September 18, 2013.
    \6\ A transition of missions, from the existing Mission for the 
Consolidation of Peace in CAR (MICOPAX, also referred to as the Central 
African Multinational Force or FOMAC) operation, which has been present 
in CAR since 2008--and replaced an earlier regional stabilization 
operation--to the African Union's African-led International Support 
Mission for the Central African Republic (MISCA, also known as AFISM-
CAR) is anticipated on December 19, 2013. U.N. Security Council 
Resolution 2127 directs the U.N. Secretary General to undertake 
``contingency operations and planning'' for the possible transformation 
of MISCA into a U.N. peacekeeping operation, and to provide 
recommendations on such a possible transformation to the Security 
Council within three months. The resolution also mandates human rights 
investigations and imposes an arms embargo.
    \7\ Djotodia appears to have risen to power in CAR by 
outmaneuvering other would-be leaders within Seleka. Prior to 2013, 
Djotodia had a minimal public profile. He reportedly studied in the 
Soviet Union in the 1970s, returning to CAR in the 1980s and obtaining 
a low-level job in the civil service. After trying and failing to win 
election to Parliament, he reportedly entered the mining trade in 
northern CAR, where he pursued connections to a rebel movement known as 
the Union of Democratic Forces for Unity (UFDR), a faction of which 
later became a founding component of Seleka. Djotodia later lived in 
Nyala, in the Darfur region of Sudan, where he reportedly represented 
the CAR Government as Consul. The connections he cultivated with 
Darfuri militia groups in Nyala later apparently became an asset both 
to Seleka (which leveraged these seasoned fighters to win its military 
victory in March 2013) and to Djotodia, who managed to sideline 
potential rivals within Seleka who had more extensive combat 
credentials. He was appointed First Deputy Prime Minister for National 
Defense (representing Seleka) in a January 2013 unity government, and 
subsequently declared himself President after Seleka seized power in 
March. See Louisa Lombard, ``President Michael Djotodia and the Good 
Little Putchist's Tool Box,'' African Arguments, April 2, 2013; Agence 
France Presse (AFP), ``Djotodia: Central Africa's Rebel Boss-Turned-
President,'' April 13, 2013; and Scott Sayare, ``Mystery Shrouds Rise 
and Aims of Rebel at Helm of Central African Republic,'' New York 
Times, April 13, 2013.
    \8\ French officials have recently suggested that this timeline 
could be shortened to mid-2014.
    \9\ Remarks by French Foreign Minister Laurent Fabius before the 
French Senate on October 16, 2013.
    \10\ Testimony of Human Rights Watch (HRW) U.N. Director Philippe 
Bolopion, House Foreign Affairs Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations, ``Crisis in the 
Central African Republic,'' op. cit.
    \11\ Reuters, ``Central African Republic Humanitarian Crisis Mounts 
Even As Attacks Ease,'' December 13, 2013.
    \12\ Roland Marchal, ``Central African Republic: Back to War 
Again?'' Global Observatory, September 12, 2013; Bolopion/HRW 
testimony, op. cit.; France24.com, ``Crise en Centrafrique: revivez les 
evenements du jeudi 5 decembre,'' December 5, 2013; Africa 
Confidential, ``Central African Republic: On the Brink,'' December 12, 
2013.
    \13\ Testimony of Principal Deputy Assistant Secretary of State 
Jackson, ``Crisis in the Central African Republic,'' op. cit.; similar 
figures were reported by the AU in July 2013--see U.N. Security 
Council, Letter dated 9 August 2013 from the Secretary General 
addressed to the President of the Security Council, August 9, 2013, 
U.N. doc. S/2013/476.
    \14\ Testimony of Nestor-Desire Nongo Aziagbia, Roman Catholic 
Bishop of Bossangoa, before the House Foreign Affairs Subcommittee on 
Africa, ``Crisis in the Central African Republic,'' op. cit.
    \15\ See, e.g., Louisa Lombard, ``Is the Central African Republic 
on the Verge of Genocide?'' Africa is a Country, December 5, 2013. In a 
recent French TV report, a Muslim resident of Bangui who had sought 
shelter from anti-balaka assailants stated angrily, ``We're Muslim . . 
. But this country belongs to all of us. There are idiots who don't 
understand this country who think we are foreigners--we're not 
foreigners!'' France24, ``Bangui, la capitale, en etat de siege,'' 
December 5, 2013.
    \16\ U.N. Security Council, Letter dated 9 August 2013 from the 
Secretary General addressed to the President of the Security Council, 
August 9, 2013, U.N. doc. S/2013/476; and Report of the Secretary 
General on the Central African Republic Submitted Pursuant to Paragraph 
22 of Security Council Resolution 2121 (2013), November 15, 2013, U.N. 
doc. S/2013/677.
    \17\ Declaration of the 3rd Meeting of the International Contact 
Group on the Central African Republic, presided by the Republic of 
Congo and AU Commissioner for Peace and Security, Bangui, November 8, 
2013; a.k.a. the ``Bangui Declaration.''
    \18\ HRW, ``State of Anarchy: Rebellion and Abuses Against 
Civilians,'' September 2007.
    \19\ See Louisa Lombard, Raiding Sovereignty in the Central African 
Borderlands, Dissertation, Duke University, 2012.
    \20\ See International Criminal Court Pre-Trial Chamber II, 
Decision Pursuant to Article 61(7)(a) and (b) of the Rome Statute on 
the Charges of the Prosecutor Against Jean-Pierre Bemba Gombo, June 15, 
2009.
    \21\ International Crisis Group (ICG), Central African Republic: 
Priorities of the Transition, Africa Report No. 203, June 11, 2013.
    \22\ ICG, ``Priorities of the Transition,'' op. cit.
    \23\ ECCAS member states are: Angola, Burundi, Cameroon, CAR, Chad, 
Republic of Congo, Democratic Republic of Congo, Equatorial Guinea, 
Gabon, Rwanda, and Sao Tome & Principe.
    \24\ For example, powerful Seleka figure Noureddine Adam, who was 
reportedly born in northern CAR and fought in several CAR rebel 
movements, also reportedly served in the Chadian army in the mid-2000s. 
See ICG, ``Priorities of the Transition,'' op. cit.
    \25\ France24, ``South Africa `Downplayed' Casualties in CAR 
Fighting,'' April 4, 2013.
    \26\ The Enough Project, ``On the Heels of Kony: The Untold Tragedy 
Unfolding in the Central'' African Republic, June 2010.
                                 ______
                                 

                       Timeline: Selected Events

    2002. The Economic Community of West African States (ECCAS) deploys 
a stabilization force to CAR in response to a rebellion by dissident 
military general-turned-rebel-leader Francois Bozize.
    2003. Bozize seizes power with Chadian backing while then-President 
Ange-Felix Patasse is abroad.
    2005. Bozize is elected President in a vote considered free and 
fair, after promulgating a new constitution.
    2007-2008. Peace agreements are signed with three northern rebel 
groups. A national ``political dialogue'' is initiated, an amnesty law 
is promulgated, and preparations are made for rebel disarmament.
    2008. A European Union Force (EUFOR), designed to contain regional 
instability emanating from Darfur, deploys to Chad and northeastern CAR 
under U.N. Security Council authorization.
    2008-2009. The Lord's Resistance Army (LRA) launches its first 
known attacks in CAR.
    2009. The U.N. peacekeeping operation MINURCAT, authorized in 2007, 
assumes EUFOR's mandate, deploys troops to northeastern CAR and eastern 
Chad.
    2010. The U.N. Integrated Peacebuilding Office in CAR (BINUCA) 
opens, replacing a previous U.N. political mission in CAR since 2000. 
MINURCAT's mandate ends and the mission withdraws.
    2011. President Bozize wins reelection and his coalition sweeps 
parliamentary elections that opposition groups claim are flawed.
    Aug. 2012. A remaining northern rebel group signs a peace deal with 
the government. However, a faction joins with two other rebel groups to 
form the Seleka (``Alliance'') rebellion.
    Dec. 2012. Seleka forces advance toward the capital. ECCAS member-
states send more troops.
    Jan. 2013. The ``Libreville Agreements'' with Seleka, mediated by 
regional powers, provide for Bozize to remain in power, a Prime 
Minister to be appointed from the opposition, and a government of 
national unity to be established. Human rights activist Nicolas 
Tiangaye is appointed Prime Minister.
    March 2013. Claiming the Libreville Agreements are not being 
respected, Seleka renews its advance and seizes power. Bozize goes into 
exile. Obscure Seleka figure Michel Djotodia declares himself 
President.
    July 2013. The AU establishes a stabilization operation, MISCA, to 
absorb and replace the existing regional force, known as MICOPAX. A 
formal transition to MISCA is anticipated on December 19, 2013.
    August 2013. Djotodia is formally sworn in as President, and an 18-
month political transition timeline, agreed to by ECCAS, officially 
begins--with elections due in February 2015.
    Sept. 2013. Djotodia orders Seleka disbanded amid mounting 
violence. Nominal Seleka commanders are implicated in a series of 
attacks on Christians and churches in western CAR.
    Oct. 2013. U.N. Security Council Resolution 2121 expands BINUCA's 
mandate and requests options for providing additional international 
support to MISCA.
    December 5, 2013. U.N. Security Council Resolution 2127 authorizes 
MISCA and French troops ``take all necessary measures'' to protect 
civilians and stabilize the country, among other tasks. The Resolution 
also directs the U.N. Secretary General to undertake ``contingency 
operations and planning'' for the possible transformation of MISCA into 
a U.N. peacekeeping operation, and to report to the Security Council 
within 3 months on recommendations on such a possible transformation. 
It also mandates human rights investigations and imposes an arms 
embargo.

    Senator Coons. Thank you very much, Ms. Arieff. We 
appreciate CRS for all the great work that you do in providing 
background for literally all of our hearings.
    Ms. Arieff. Thank you.
    Senator Coons. Ms. Lisabeth List on behalf of Medecins Sans 
Frontieres.

STATEMENT OF LISABETH LIST, MEDICAL COORDINATOR, MEDECINS SANS 
        FRONTIERS/DOCTORS WITHOUT BORDERS, NEW YORK, NY

    Ms. List. Thank you, Chairman Coons and Ranking Member 
Flake, for the opportunity to share our perspective from MSF. I 
am a nurse and I have been working for MSF since 1997, and this 
fall I worked in the Central African Republic as a medical 
coordinator. I worked in the town of Bossangoa responding to 
the emergency situation there. I joined a team of more than 100 
international and 1,100 local staff working across the country.
    We are encouraged that the subcommittee is turning its 
attention to the CAR, a country long neglected despite an 
ongoing silent crisis. Today the situation has worsened by 
added violence demanding immediate engagement by the 
international community, including the United States.
    We regret to report, as we did in an open letter to the 
United Nations on December 12, that the humanitarian response 
in CAR has been wholly inadequate. Mr. Chairman, we have two 
fundamental concerns: first, the lack of assistance to 
populations displaced by the ongoing violence in different 
parts of the country; and second, the failure to tackle issues 
that have long affected CAR and the health of its people. The 
recent violence comes on top of a state of chronic emergency 
characterized by a crippled, if not collapsed, health system. 
These ongoing problems must be addressed.
    As a quick overview, MSF has been working in the country 
since 1997, running seven medical projects. This year MSF 
opened four new emergency projects, including Bossangoa and 
Bangui. In Bangui MSF teams are providing lifesaving emergency 
care in two hospitals and are providing medical services to 
approximately 70,000 displaced people gathered in three sites.
    Sanitary conditions in these sites are, in a word, 
deplorable. Many other needs remain unfulfilled, including 
food, shelter, and protection. More than 400,000 people are 
internally displaced throughout the country, roughly 10 percent 
of the country's population. Of those, 150,000 are reportedly 
trapped in the bush without access to food, water, or health 
care. The large geographic area where these civilians could be 
hiding, coupled with the overall lack of aid, makes it 
difficult to assess, let alone meet, the needs.
    While immediate humanitarian assistance is required, the 
chronic crisis in the country also requires a long-term 
strategy. CAR's health indicators rank among the worst in the 
world. It has one of the lowest life expectancies at 48 years. 
164 out of 1,000 children die before the age of 5, and I could 
go on.
    In 2011, a year before the violence, an MSF retrospective 
mortality survey revealed mortality rates well in excess of 
emergency thresholds. Yet, despite consistent advocacy efforts, 
conditions on the ground were deemed not critical enough to 
warrant emergency assistance. Now, around 60 percent of health 
structures have been looted or destroyed and 80 percent of 
health workers have fled their posts. Ninety percent of the 
country's medical structures have run out of drugs. We are 
facing a crisis on top of a crisis.
    MSF's operational goal was to support the Ministry of 
Health, but since recent events the system has collapsed and 
now MSF fulfills many of the ministry's functions. In our 
projects we see a massive prevalence, incidence of mortality, 
attributed to preventable and treatable diseases. In CAR every 
individual in the population is infected with malaria at least 
once a year. It is the country's main killer. People displaced 
in the bush are at risk of greater exposure to malaria, and in 
early 2013 we observed an increase for children under 5 of 46 
percent.
    As well, CAR has the highest HIV prevalence in Central 
Africa. Approximately 45,000 people require antiretroviral 
therapy, but only one-third of those receive treatment, and at 
least 11,000 HIV-positive people have experienced treatment 
interruption and now risk developing resistance to 
antiretrovirals.
    Of equal alarm is the state of immunization programs, which 
has always been poor, particularly in rural areas.
    Mr. Chairman, allow me to illustrate the humanitarian 
situation through my experience in Bossangoa. Roughly 40,000 
displaced persons are living in the town's Catholic mission 
compound, too terrified to return to their homes. Sanitary 
conditions are far below minimum emergency standards and as of 
last week individuals were provided with only 7.8 liters of 
water per day, well below the 15 to 20 liter standard in such 
settings.
    Emergency humanitarian response entails risk, but MSF has 
demonstrated that international staff deployment is indeed 
feasible. It is also necessary. The lack of skilled medical 
personnel available in CAR and the need to protect our national 
staff from complex intercommunal violence has prompted us to 
increase international staff in the country. Throughout 2013 
our teams never fully evacuated project sites. On the contrary, 
we expanded our presence in six of the most vulnerable areas of 
the country.
    All the humanitarian organizations working in CAR have 
experienced security incidents, including MSF. Yet the 
humanitarian imperative should not be subservient to security 
concerns. In our view, security assessments are 
disproportionate to field realities.
    The levels of funding for humanitarian activities also 
reflect the lack of attention paid. As of December 6, 2013, the 
two major donors for humanitarian funding, the European 
Commission and the United States Government, were individually 
contributing less than MSF's total 2013 operational budget for 
CAR, which amounts to $37 million.
    In conclusion, Mr. Chairman, the chronic challenges facing 
CAR cannot be overcome by humanitarian assistance alone. We 
wish to recommend the following: First, humanitarian agencies 
must scale up interventions in remote areas in response to 
increasing needs, including to displaced populations. U.N. 
agencies in particular must increase activities since many aid 
agencies rely on them to provide an operational umbrella.
    Second, immediate support must be provided to the severely 
disrupted public health system.
    Finally, humanitarian funds must be raised and adapted to 
both the short- and long-term needs of the country.
    Thank you, Mr. Chairman. I am happy to take your questions.
    [The prepared statement of Ms. List follows:]

                  Prepared Statement of Lisabeth List

    Thank you Chairman Coons, Ranking Member Flake, and other members 
of the Committee, for providing Medecins Sans Frontieres (MSF)/Doctors 
Without Borders the opportunity to testify at this hearing on the 
Central African Republic, and to share our field perspective regarding 
the humanitarian situation there.
    I'm a nurse, and I have been working for MSF since 1997. In October 
and November of this year I worked in CAR for 5 weeks as a medical 
coordinator. I worked in the town of Bossangoa, responding to the 
emergency situation facing its population.
    We are encouraged that this subcommittee is turning its attention 
to the Central African Republic, a country long neglected by the 
international community while facing a silent crisis. Today, the 
situation in CAR is exacerbated by additional violence demanding urgent 
and immediate engagement by the international community, including by 
the United States.
    We regret to report, as we did in an open letter to the United 
Nations on December 12, that the humanitarian response in CAR has been 
wholly inadequate.
    Mr. Chairman, I would like to address two fundamental concerns 
regarding the disastrous humanitarian crisis affecting the Central 
African people:

  <bullet> The lack of humanitarian assistance to populations displaced 
        by the ongoing 
        violence in different parts of the country;
  <bullet> The lack of engagement and attention from the international 
        community to tackle the issues that have long affected CAR and 
        the health of its people. The recent violence comes on top of a 
        state of chronic emergency, characterized by a crippled, if not 
        collapsed, health system. These ongoing problems must be 
        addressed.
                    msf operational overview in car
    MSF has been working in the CAR since 1997. MSF runs seven regular 
projects in Batangafo, Boguila, Carnot, Kabo, Ndele, Paoua, and Zemio. 
This year, MSF opened new emergency projects in response to the 
increasing humanitarian needs resulting from violence, displacement and 
the collapse of the health system. MSF opened four emergency projects 
in Bossangoa, Bouca, Bria and Bangui. A mobile emergency team provides 
care in Mbaiki and Yaloke zones, and MSF plans to initiate activities 
in Bangassou and Ouango.
    In response to the recent violence in Bangui, MSF teams are 
providing life saving emergency care in two hospitals in Bangui, and 
are providing medical care services to approximately 70,000 displaced 
people gathering in three sites: Bangui airport, Boy-Rabe Monastery, 
and the Don Bosco Center. At this very moment, sanitary conditions in 
these sites, are, in a word, deplorable. Many other needs remain 
unfulfilled, including food, shelter, and protection.
    Between December 5 and 12, 2013, MSF teams treated more than 350 
wounded people in Bangui Community Hospital and tripled the facility's 
bed capacity. Between December 7 and 12, MSF teams performed more than 
1,700 medical consultations in the three sites, including treating 
dressing wounds, burns, respiratory tract infections, and malaria. The 
teams also referred medical and surgical emergency cases to hospital 
structures in the city, including Castor Maternity, the Community 
Hospital, and the Pediatric Complex.
    I joined a team of more than 100 international and 1,100 local 
staff working in 7 hospitals, 2 health centers, and 40 health posts 
across the country.
                               background
    Since the military coup d'etat of March 22, 2013, the political, 
security, and humanitarian situation in Central African Republic has 
deteriorated considerably.
    Continued political instability in Bangui has led to lawlessness 
across the country. The health system has collapsed, while medical 
facilities have been deliberately attacked. The lack of access to 
medical care has remained a constant challenge for populations in need 
of urgent humanitarian assistance.
    The country has experienced a chronic medical emergency for years, 
with little international attention and few humanitarian organizations 
operating on the ground, especially outside Bangui. The recent 
political and military developments have exacerbated an already 
desperate situation, producing additional displacements of populations, 
particularly in isolated rural areas. Medical needs are rising and are 
far from being covered.
    After years of neglect and abandonment, this forgotten country is 
finally making news headlines because of unprecedented levels of 
violence exacted on the population since the coup. Civilians, terrified 
by gruesome targeted killings and made even more vulnerable by forced 
displacement, are in even greater need of protection and assistance. 
Aid organizations are failing to deliver basic relief services.
    Violence is today greatly impacting the lives of civilians. 
Immediate humanitarian assistance is required. However, given the 
chronic nature of CAR's challenges, a long-term perspective and 
strategy, encompassing funding and programmatic planning, must be 
adopted.
                      a crisis on top of a crisis
    MSF has long sought to mobilize the international humanitarian 
community in CAR. Since 2011, we have illustrated the chronic medical 
emergency situation with retrospective mortality surveys in nonconflict 
areas of the country. In November 2011, we released a report titled ``A 
State of Silent Crisis'' that raised the alarm over mortality rates in 
excess of emergency thresholds in large parts of the country.\1\
    Based on mortality surveys undertaken by MSF epidemiological teams 
and other researchers over an 18-month period, the survey highlighted 
the inadequate levels of assistance provided by various aid actors to 
respond to this forgotten chronic medical crisis.
    The survey noted decreasing expenditure levels on health by the 
government, but also a lack of long-term investment by the 
international community. The report concluded that greater medical 
assistance was necessary throughout the country. However, despite 
consistent advocacy and lobbying efforts, conditions on the ground were 
deemed not critical enough to warrant emergency assistance. The country 
was also unable to qualify for structural development funds.
    CAR's health statistics continue to rank among the worst in the 
world. It has one of the world's lowest life expectancies at 48 years. 
All health indicators are beyond alarming, and, disturbingly, figures 
are certainly underreported.

--There is one doctor for every 55,000 people, and a nurse or midwife 
    for every 7,000;
--164 out of 1,000 children die before the age of five;
--Of men between the ages of 15 and 60, 466 out of 1,000 perish; among 
    women 420 die--a nearly 50-percent death rate.\2\

    The military takeover by Seleka would prove to be the catalyst for 
further descent toward chaos, as looting and attacks targeting 
civilians for their meager resources became the norm, including in the 
capital city of Bangui. State buildings, ministries, schools, hospitals 
and private homes have been robbed and damaged while most civil 
servants have fled, and the country's archives have been destroyed. It 
is estimated that 60 percent of health structures were looted or 
destroyed since December 2012; 80 percent of health workers fled and 
took refuge in Bangui; drugs, vaccines, and medical supplies can't be 
distributed from the capital to the rural areas. Ninety percent of the 
country's medical structures have run out of medical stocks.
    Violence between different armed groups, such as ex-Seleka forces 
and bush-based civilian militias (also known as ``self-defense groups'' 
or ``anti-balaka'') has fundamentally disrupted crucial aspects of 
people's lives, including schooling for children, agricultural 
production, access to functioning markets, and the degradation of 
essential infrastructure, including the few functioning health centers 
and hospitals. It is estimated that the country has more than 400,000 
internally displaced people, roughly 10 percent of the country's 
population.
    We are now facing a crisis on top of a crisis.
    health system analysis: prior weak functioning and 2013 collapse
    Over several years, MSF has witnessed the weaknesses of CAR's 
health system. Our operational goal was to support the Ministry of 
Health's provision of medical services. Yet since December 2012, we 
have only observed the system's collapse. As a result, MSF today 
fulfills many of the Ministry's functions. The public health system is 
more a phantom than a reality.
    In our projects, we see a massive prevalence, incidence, and 
mortality attributed to preventable and treatable diseases.
Compounding this dire situation is an unknown number of forcibly 
displaced people scattered in the bush without any access to basic 
services.
Malaria
    Malaria is holoendemic in CAR, meaning every individual in the 
population is infected at least once per year. It is the country's main 
killer and is the principal cause of morbidity and mortality among 
children.
    The country's policy of free malaria treatment for children under 5 
is in name only. The system is not functional and is plagued by 
essential drug stock ruptures and logistical constraints.
    Frequent displacement of people into the bush since December 2012 
has contributed to increased exposure to malaria. Prevention and 
treatment measures have been largely absent since the political crisis 
began. The large-scale mosquito net distribution planned by the 
Ministry of Health for 2013 was cancelled because of insecurity. The 
supply of malaria drugs to rural areas has also been disrupted.
    In the first quarter of 2013, health facilities supported by MSF 
treated 74,729 patients for malaria, an increase of 33 percent over the 
same period in 2012, when 50,442 patients were treated. For children 
under 5 years of age, there has been an increase of 46 percent, from 
23,910 in 2012 to 44,469 in 2013. In Boguila, for example, 61 percent 
of outpatient consultations of children under 5 were for malaria during 
the first quarter of the year, compared with 41 percent a year ago. 
While several factors could explain the increasing numbers in MSF-
supported facilities, we believe the disruption of services provided by 
the Ministry of Health and other aid organizations certainly play a 
crucial role.
    Huge challenges remain to increase access to diagnosis and 
treatment. Prior plans to decentralize care to primary health 
structures and to community health workers are now shelved. The 
objective of ensuring unbroken availability of life-saving artemisinin-
based combination therapy (ACT) and rapid diagnostic tests in health 
centers and health posts has evaporated.
HIV-AIDS
    CAR features the highest HIV prevalence in Central Africa. The 
epidemic is generalized among the adult population, with most 
transmission occurring sexually. Nonetheless, before the onset of 
recent violence, small gains were detected.
    A national seroprevalence survey conducted in 2010 found a 5.9-
percent infection rate among 15-49-year-olds, a slight decrease from 
the previous study result of 6.2 percent. While the rate in that age 
group had risen among men (4.3 percent to 5.4 percent), it had fallen 
among women (7.8 percent to 6.3 percent).\3\
    The highest geographic concentration is in the capital (10.7 
percent) and in areas affected by conflict. UNAIDS estimates that 
110,000 adults and 17,000 children are HIV positive, while 11,000 
people die each year from HIV-related complications. The Centre 
National de Lutte contre le Sida (CNLS, or National Centre for the 
Struggle Against AIDS) has estimated that 45,000 people, including 
14,000 children, require antiretroviral (ARV) treatment.
    But, at present, only some 15,000 people are receiving ARV 
treatment, just one-third of those who need it. MSF has 1,700 patients 
on first-line antiretroviral treatment.
    The drug supply system has been disrupted for months. Widespread 
looting of medical facilities since the March 2013 coup has led the 
Global Fund to Fight AIDS, Tuberculosis and Malaria to cease 
maintaining drug stocks in the country. These supply problems have had 
serious consequences on adherence to treatment and have led to the 
development of drug resistance.
    MSF estimates that approximately 11,000 HIV-positive people (73 
percent of all people who are on antiretroviral treatment in CAR) have 
had their treatment interrupted due to drug supply problems during the 
political upheaval.
    This situation poses serious questions about potential risks of 
resistance to antiretroviral treatment, but also about the continuity 
of the national HIV program given the collapse of the health system and 
the lack of international and national actors to implement such a 
program.
Vaccination/Expanded Program on Immunization (EPI)
    Vaccination coverage for childhood illnesses is poor and 
contributes to high levels of mortality from preventable childhood 
diseases.
    One case of wild polio virus was reported near MSF's Batangafo 
project in late 2011; the child's father confirmed that their village 
had not been visited during polio vaccination campaigns in 2008 and 
2011, due to permanent insecurity and armed clashes in the zone.
    Immunization activities are usually functional at hospital level 
but, at health centers and in communities, these activities are more or 
less nonexistent. There are also no programs in place to bring 
immunization activities to more isolated areas. Furthermore, there have 
been recurrent stock ruptures of BCG, polio, and tetanus vaccine, while 
the majority of health centers no longer have functioning cold chain 
equipment. There have been a number of ad hoc supplementary 
immunization activities undertaken, but with questionable coverage and 
quality.
    Routine vaccination is one of the country's health care black 
holes. It can be safely assumed that most newborns since December 2012 
have not had access to the routine vaccination package (EPI). This has 
increased the risk of outbreaks of diseases like measles, meningitis, 
and pertussis (whooping cough) over the coming 2 years, and has created 
a cohort of children particularly susceptible to such diseases.
    With the support of the international community, a measles 
vaccination campaign was carried out in May 2013 by UNICEF and its 
remaining in-country partners. However, it was conducted in difficult 
circumstances, and was targeted primarily at children in Bangui and the 
surrounding area. Nothing has been proposed for the 1.5 million 
children living outside the capital. The withdrawal of most 
international assistance organizations leaves a phantom health system 
in CAR already unable to carry out adequate surveillance and monitoring 
of rural areas at risk of outbreaks.
    Throughout the 2013 crisis, the health system has not been spared. 
Ministry of Health facilities have been looted of drugs, diagnostic 
tools, patient records, and even furniture. Most medical staff have 
fled their posts, especially those working outside the capital. These 
attacks have deprived an already vulnerable population of access to 
even basic medical treatment.
    In sum, on the medical front, we are facing a chronic emergency 
situation.
             humanitarian action: dismal emergency response
    Humanitarian assistance can help lower deaths caused by endemic and 
epidemic diseases and by the effects of crisis, conflict, and 
displacement. But greater recent international attention on CAR, has 
yet to translate into a substantial humanitarian response.
    Every day the situation becomes worse, and rising humanitarian 
needs go unmet. It has been 9 months since the military coup, a period 
characterized only by killings, injuries and displacement, and the 
disruption of basic services. MSF has raised the alarm at local, 
national, and international levels for months, calling for an immediate 
and more robust humanitarian response. Our calls have gone largely 
unanswered.
    Today, we continue to witness a limited and slow humanitarian 
response. Even in Bangui, where most aid agencies are present, there 
are serious gaps in the humanitarian response to the recent violence.
    Mr. Chairman, allow me to illustrate the humanitarian situation 
through my experience in Bossangoa, which is just one emblematic symbol 
of the current crisis.
    Since early September, MSF has been providing health care and water 
and sanitation services to the displaced people living in the town. In 
October we treated 60 wounded people. And in early December we treated 
20 people wounded in a new spike of violence.
    As you may know, roughly 40,000 displaced people are living in the 
Catholic Mission's compound, terrified by the prospect of returning to 
their living quarters only a few hundred meters away or in nearby rural 
villages east and south of the city.
    A full 4 months after they were displaced, the sanitary conditions 
at the Catholic Mission still do not meet minimum emergency standards. 
As of December 10, individuals were provided with only 7.8 liters of 
water per day, well below the 15-20 liter standard in such settings. 
There was only one latrine for every 166 persons, far below the 
recommended ratio of one to 20 persons. Not a single shower facility 
exists in the compound.
    People are living in an area 20 times smaller than what would be 
required to meet emergency standards. Needs are enormous and MSF teams 
are observing a gradual rise in malnutrition, without an adequate and 
coherent response from humanitarian organizations, particularly from 
U.N. agencies.
    This is an unacceptable situation for one of the rare IDP camps 
where populations are concentrated in one specific location, and where 
there could be an easier scale-up of services.
    Populations living in other areas of the country affected by the 
recent violence, such as Yaloke, Mbaiki, Bangassou, Ouango, Bouca or 
Bouar, also do not receive the humanitarian assistance they desperately 
need. In those locations, there is a limited presence of humanitarian 
organizations.
    The instrumentalized religious antagonisms and targeted brutality, 
which provoked previously unknown faith-based communal hatred, is 
alarming. This trend, combined with violence targeting civilians since 
last summer, has forced people into hiding to avoid being killed. 
People are abandoning their villages, which often end up burned to the 
ground by armed groups.
    There are reports that up to 150,000 civilians could be trapped in 
the bush without access to food, water, or health care. The extent of 
the violence in rural areas and the large geographic scope where these 
civilians could be hiding makes it difficult for aid agencies to 
assess, let alone meet, their needs. People are constantly on the move 
to avoid slaughter.
    The humanitarian situation is expected to worsen even further.
    At the moment this hearing takes place, my MSF colleagues are 
working around the clock in Bangui in response to violence in the 
capital.
    More than 350 wounded patients were treated in the Hospital 
Communautaire over the last few days. Most have wounds caused by 
gunshots, or by machetes and knives. MSF teams are strengthening 
hospital services by opening a second operating theater and increasing 
hospitalization capacity. A second team is working in Castor Health 
Center, treating patients with minor wounds and providing health 
services for pregnant women. A third team is carrying out mobile 
clinics for roughly 14,000 displaced persons gathered in Bangui airport 
and in Don Bosco Center.
    Outside of a few groups responding to the emergency, the scale-up 
of humanitarian assistance has been dismal, leading to large gaps in 
aiding civilians fleeing the renewed conflict.
Security
    MSF, like other humanitarian organizations, has to work in complex 
and challenging security environments. CAR is certainly one of those 
settings. Immediate deployment of relief efforts is both challenging 
and expensive. But we strongly believe it is possible and urgently 
required.
    Humanitarian emergency response entails risk, but MSF has shown 
over the last year that an upgrade in capacity through international 
staff deployment is indeed feasible. Throughout 2013, our teams never 
fully evacuated from project sites. On the contrary, we expanded our 
presence in six of the most vulnerable areas of the country.
    All the humanitarian organizations working in the country have been 
affected by security incidents, including MSF. In Bangui, our offices 
and houses, along with those of United Nations agencies and 
international nongovernmental organizations (NGOs), have been 
repeatedly looted.
    Yet the humanitarian imperative should not be made subservient to 
security concerns. It is our responsibility to do our utmost to provide 
life saving relief.
    As you can imagine, given the humanitarian needs, CAR is one of the 
top ranking operational priorities for MSF. For this reason, MSF is 
making significant efforts to maintain regular projects and to scale-up 
assistance, including through the opening of four additional emergency 
projects and dispatching experienced international staff to the 
country.
    For MSF, it is not only essential to deploy international staff 
given the lack of skilled medical personnel available in CAR, but also 
to avoid further exposing our national staff to complex intercommunal 
violence. In some rural locations, we have observed that the presence 
of international personnel provides a measure of reassurance for the 
terrified civilian populations.
Funding and other reported challenges for deployment of humanitarian 
        assistance
    The levels of funding for humanitarian activities reflect the lack 
of attention given to the country.
    As of December 6, 2013, the two major donors for humanitarian 
funding were the European Commission ($26.9 million) and the United 
States Government ($24.6 million).\4\ Notably, MSF's total 2013 
operational budget for CAR amounts to $37 million. All of these figures 
do not reflect the additional expenditures required to deploy immediate 
and significantly increased humanitarian assistance.
    However, the lack of experienced relief agency staff on the ground, 
and what in our view are security assessments disproportionate to field 
realities, present further, yet avoidable, obstacles to deploying much 
needed aid. As MSF has demonstrated, these are surmountable challenges. 
There is space to work.
                               conclusion
    The Central African Republic today finds itself in a state of 
chronic medical emergency compounded by unprecedented levels of 
violence. While the world has been looking elsewhere, Central Africans 
are suffering and dying in unacceptable numbers. Today, as the world 
turns its attention to CAR, longstanding needs should not be forgotten, 
and acute needs throughout the country must be addressed.
    It is imperative to improve humanitarian aid across the areas where 
fighting has erupted since August 2013. Existing levels of assistance 
are plainly insufficient given the scale of needs. The country requires 
more aid organizations conducting larger operations. We acknowledge the 
dilemmas faced by humanitarian actors, including over security. Yet 
these must be balanced against the massive needs observed across the 
country, which demand action.
    Given the chronic challenges facing CAR, a long-term perspective 
and strategy is required. The basic services of a country cannot be run 
by humanitarian assistance alone. It is simply not sustainable.
    The international community, donors, and major development actors, 
must double their efforts. The long-term prognosis is bleak, and 
unacceptable. Without profound external assistance, CAR's health 
system--among other sectors--will simply not function.
                            recommendations
Humanitarian agencies must scale up interventions in remote areas in 
        response to increasing needs
    Difficult and volatile security conditions cannot justify a limited 
humanitarian presence outside the capital and the absence of proper 
monitoring and response mechanisms to the emergency.
    The continuous presence of MSF teams in remote areas demonstrates 
that it is indeed possible to run regular aid programs, despite the 
instability. Context and security analyses must be improved. 
Additionally, a larger presence of emergency teams supported by 
experienced international staff is required to run operations and to 
protect national staff in a context of growing intercommunal tensions.
Humanitarian assistance to displaced populations must be enhanced and 
        must respond to the enormous needs throughout the country
    The situation for roughly 40,000 IDPs in Bossangoa and tens of 
thousands of others in Bangui, have rightly caught the attention of the 
international community. But the broader reality is much worse. All 
around the country, an estimated 400,000 displaced persons are 
neglected, most of them exposed to daily violence, deprived of any 
dignified living conditions. They are exposed to the most common and 
treatable diseases, yet they have no access to medical assistance.
The public health system is severely disrupted and desperately needs 
        immediate support
    Ministry of Health facilities have been robbed and looted of drugs, 
diagnostic tools, patient records, and even furniture. Most medical 
staff have fled their posts, especially those working outside the 
capital. Health surveillance systems have stopped, as well as routine 
vaccination activities. The risk of epidemics is high, particularly in 
IDP sites, while the annual malaria peak is ongoing. Moreover, 
widespread insecurity is preventing the population from accessing the 
few remaining health facilities. The national health system, already 
dysfunctional before the crisis, is now severely disrupted.
Humanitarian funds must be raised and adapted to both the short- and 
        long-term needs of the country
    For years, the country has been trapped between emergency and 
chronic needs. While it is urgent to mobilize significant humanitarian 
funding to save lives today, longer term and resource intensive 
programs to restore the country's basic services must be implemented.
U.N. agencies must increase their operations
    All international agencies and NGOs must increase their activities 
in CAR. United Nations agencies in particular must increase their 
capacities on the ground, since many aid agencies rely on them to 
provide an umbrella under which they operate. Humanitarian and 
development agencies must scale up and maintain their commitments.

----------------
End Notes

    \1\ ``Central African Republic: A State of Silent Crisis,'' 
November 2011: http://www.doctors 
withoutborders.org/publications/reports/2011/
A%20State%20of%20Silent%20Crisis%20EN.pdf.
    \2\ ``WHO, Central African Republic, Health Profile 2011,'' http://
www.who.int/gho/countries/caf.pdf.
    \3\ UNFPA (2011), Presentation des principaux resultats de la 
serologie VIH prevalence du VIH de la Quatrieme Enquete Nationale a 
Indicateurs Multiples 2010. [Powerpoint presentation.]
    \4\ Funding figures are as of December 6, 2013. All international 
figures are according to OCHA's Financial Tracking Service and based on 
international commitments during the current calendar year, while USG 
figures are according to the USG and reflect the most recent 
USG commitments based on the associated fiscal years, which began on 
October 1 of 2012 and 
2013. Figured quoted from USAID, Central African Republic--Complex 
Emergency, Fact Sheet #1, FY 2014. (December 6, 2013) http://
www.usaid.gov/sites/default/files/documents/1866/
car_ce_fs01_09?30?2013.pdf.

    Senator Coons. Thank you very much, Ms. List.
    We would now like to turn to Mark Schneider of the 
International Crisis Group. Mr. Schneider.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Thank you very much, Mr. Chairman. Let me 
express my appreciation for the Crisis Group to you and to the 
ranking member and to the subcommittee for focusing attention 
on the humanitarian and political disaster in the Central 
African Republic.
    Crisis Group analysts have reported regularly on the 
situation in the Central African Republic and have identified 
over the years corrupt governance, discriminatory distribution 
of public services, plundering of mineral wealth, abusive and 
often brutal security forces as root causes of conflict. Our 
analysts left this weekend, but will be returning shortly.
    I think it is important to recognize that this crisis has 
been building for decades and unfortunately no one has been 
paying enough attention. The country's socioeconomic indicators 
are the worst in Africa. Let me just give you two indicators of 
the failure of focus of the international community.
    You heard the life expectancy last year was estimated at 
somewhere between 48 and 49 years. In 1990 life expectancy was 
estimated at 48 years. In 1980 GDP per capita was estimated at 
$963. In 2012 GDP per capita was estimated at $722. That 
reflects just the failure of development and essentially the 
corrupt management of governance.
    Today the Central African Republic is a collapsed state, 
with more than, as you have heard, 613,000 internally displaced 
persons, including almost a quarter of the capital city's 
population. While you have heard that over recent months you 
have seen an additional 70,000 refugees going to neighboring 
countries, in fact there are some 230,000 total refugees from 
CAR in countries, in neighboring countries.
    Virtually all the displaced in the CAR are in hiding or in 
makeshift camps, with little or no security, water, food, or 
shelter. They have fled sectarian atrocities and the potential 
for further killing demands that we ask more can be done, how 
can it be done faster, and who can do it.
    We all can thank the French Government for quickly 
deploying the Sangaris rescue force of 1,600 troops in recent 
days. The reality is that the international community was 
woefully slow to respond to the signs of rising insecurity, 
growing religious tensions between the Christian and Muslim 
communities, a stalled political transition, and mounting 
evidence of armed groups under little control.
    The state, rarely seen beyond Bangui, now has also vanished 
in the capital, with ministries, police stations, and courts 
looted. As you have heard, the description of the Ministry of 
Health is the same description of every other ministry, where 
the buildings themselves have been looted, the ministers and 
the public servants have either fled or are in hiding, and they 
essentially have no state functioning.
    In recent days, as you know, Seleka forces have also gone 
on a door-to-door killing spree, spawning a cycle of 
retaliation in which civilian Muslims suspected of being close 
to Seleka have been targeted and some massacred. Residents have 
fled en masse to churches, mosques, and orphanages that are now 
sanctuaries for a battered population.
    We described in recent days three potential immediate 
scenarios. First, a continuation of urban war and religious 
massacres despite the presence of French troops and a fully 
deployed MISCA. Second is a stalemate in which the bulk of the 
anti-balaka forces remain outside Bangui and the major threat 
in the city comes from Seleka forces, and they we believe would 
be rather quickly neutralized by the French and MISCA.
    Third and probably the best scenario would be a decision by 
the anti-balaka forces to leave Bangui, return to the 
provinces, and a parallel decision by the Seleka fighters to 
return to the barracks and to participate in a renewed program 
of DDR.
    Each of these scenarios will affect the prospects for 
ending the crisis. However, in any case we believe the 
following three actions are immediately necessary.
    First, restore law and order or at the very least stability 
and order in Bangui, with priority for disarming illegal armed 
groups and protecting IDP centers and assuring humanitarian 
access.
    Second, to reestablish law and order in the cities where 
interreligious clashes have already been reported, extending 
order beyond Bangui to the northwest, and secure the main 
economic corridors from Bangui to the Cameroon and Chad 
borders, and again with a priority for humanitarian protection 
and access.
    Third is to ensure that those responsible for international 
peace enforcement and peacekeeping forces are tightly 
coordinated, fully resourced, rapidly deployed, and 
complemented by rapid installation of combined international 
and CAR police.
    The United States, as you know, has begun to support the AU 
military deployment and U.N. planning. What is critical is that 
the United States continue to cooperate in order to ensure that 
the MISCA peacekeeping mission and, if there is ultimately a 
U.N. peacekeeping mission, reflects the right balance in terms 
of national troop contributors, religion, and skill sets, 
particularly police, engineers, and medical units.
    I would also emphasize that we would urge the United States 
to encourage the United Nations to accelerate its current time 
line for assessing conditions on the ground and the adequacy of 
the existing peacekeeping force, to make recommendations to the 
Security Council on the need for a U.N. PKO, its mandate, how 
it will build and incorporate appropriate MISCA forces, and 
also to try and maintain an appropriate AU commitment to 
whatever comes next, even if the troops are blue-helmeted.
    Finally, we have to raise questions about the U.N. 
capacity. There have already been two U.N. peacekeeping forces. 
MINURCAT ended in 2010 and was criticized for lack of 
resources. The current political mission, BINUCA, while it has 
had a recently expanded mandate, is vastly underresourced and, 
as an example, has two people working on DDR, it has got four 
people responsible for doing the human rights monitoring, 
investigation, and documentation. It is simply inadequate.
    There are five additional steps we believe in the mid-term 
and the United States should support them all: Obviously, the 
DDR process.
    Second, interfaith reconciliation and community-level 
activities of social cohesion and peace-building.
    Third is to investigate and document and hold accountable 
those responsible for the atrocities that have taken place.
    Fourth is to undertake an inquiry, which is called for in 
the Security Council resolution, into the illegal exploitation 
of diamonds, gold, and other minerals, for two reasons. That 
finances the Seleka and other illegal forces; and it also gives 
you one way to begin to get state resources, revenues back into 
the government.
    Finally, kickstarting the economic recovery.
    The United States should support these efforts directly 
through USAID and the State Department and through the World 
Bank, the African Development Bank, and the United Nations. You 
have heard the United States is considering, I think, 
additional humanitarian relief. We also think the United States 
should consider what it would take to open up the Embassy in 
Bangui once again, what is the protection that it needs, and to 
provide it. If the United States is going to play a political 
role you have to be on the ground.
    I think that as part of the efforts to prepare for the 
upcoming donors meeting in the beginning of February there 
needs to be an honest review of what has failed over the past 
decade in development, in security, in DDR, in order to begin 
to build a plan that will have some possibility of success.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schneider follows:]

                Prepared Statement of Mark L. Schneider

    I would like to express my appreciation to the chairman, Senator 
Christopher Coons, ranking member, Senator Jeff Flake, and members of 
the Africa Subcommittee of the Senate Foreign Relations Committee for 
the opportunity to testify for the International Crisis Group this 
afternoon and for focusing attention on the humanitarian and political 
disaster in the Central African Republic.
    Crisis Group analysts have reported regularly on the Central 
African Republic identifying the underlying causes of conflict in that 
country stemming from corrupt governance, discriminatory distribution 
of public services, plundering of diamond, gold, and other mines, and 
abusive and often brutal security forces. Our analyst left Bangui this 
weekend.
          the situation today in the central african republic
    The Central African Republic is a collapsed state today, with more 
than 613,000 internally displaced persons (IDPs), including close to a 
quarter of the capital city's population, and another 230,000, who also 
have fled their homes and now are refugees in neighboring countries, 
according to the U.N. Office for the Coordination of Humanitarian 
Affairs (OCHA). Virtually none of those displaced are in secure or 
controlled sanctuaries. Instead they are hiding in the bush or in make-
shift quarters with no one fully responsible for their safety. In fact, 
they are easy targets in the still chaotic security situation in Bangui 
and many other cities as the French Sangaris rescue operation is just 
being deployed. Sangaris has yet to be tightly coordinated with the 
African Union peacekeeping operation MISCA, authorized under Chapter 
VII by the Security Council, which only comes into being this Thursday 
(19 December).
    Despite the best efforts of senior religious figures such as the 
Archbishop Dieudonne Nzapalainga and Imam Oumar Kobine Layama, the 
evidence of sectarian atrocities and the potential for further killing 
demands that we ask what more can be done, how can it be done faster, 
and who can do it.
    While we can thank the French Government for quickly deploying a 
force of 1,600 into the CAR, the reality is that the international 
community was woefully slow to respond to the signs of rising 
insecurity, growing religious tensions between the Christian and Muslim 
communities, a stalled political transition and mounting evidence of 
armed groups under little control. In June, Crisis Group raised 
concerns of a new dangerous turn toward anarchy following last 
December's Seleka military offensive, the March coup by the same Seleka 
rebel force that deposed former President Bozize and installed its new 
government under President Michel Djotodia, and the clear lack of 
commitment, control, and capacity of that transitional government to 
carry out the emergency measures that were required to restore 
stability and security. We also criticized the failure of the 
international community to mount a support effort that might prompt the 
needed actions by that transitional government.
    Instead the last 6 months have seen a state collapse of historical 
proportion. Before this coup, a popular joke in CAR was that the state 
ends at PK12, the last Bangui suburb. Now the state has also vanished 
in the capital city with ministries, police stations, and courts looted 
in the city and across the country. Several Ministers recently fled the 
crisis in Bangui and some of them were fired last Sunday (Finance, 
Public Security, and Livestock Ministers). Schools also remain closed 
and many have been sacked, homes have been trashed and at least several 
thousand burned to the ground and hospitals and clinics have come under 
attack. Atrocities have taken place in many communities. In Bangui, 
Seleka forces have also gone door-to-door in neighbourhoods such as 
Boeing, Boy Rabe, and PK12 to seize men over the age of 15--often to 
execute them. A vicious cycle of retaliation has started and civilian 
Muslims suspected of being close to the Seleka are now targeted and 
some have been massacred. Residents of Bangui have fled en masse to 
sites where they hope to find some protection: the airport, the 
community of Don Bosco, the orphanage Saint Joseph Mukassa in Cattin 
area, the church St Jean de Gabaladja in Gobongo, the church in the 
Castor neighbourhood, the monastery of Boy Rabe, the St. Paul parish in 
Ouango or, for Muslims, the mosque of Ali Baboulo near the 
neighbourhood of Miskine and the Islamic school, next to PK5 are now 
sanctuaries for a battered population.
    Seleka fighters also have targeted those they suspect of supporting 
the anti-balaka groups, self defense groups that largely formed in 
response to the Seleka violence but also were led, in many cases, by 
former members of the Bozize security forces. It is clear the objective 
of the anti-balaka groups coming into Bangui is not self-protection but 
the ousting of the Seleka fighters and the transitional government. 
However, recent contacts between a group of anti-balaka and Djotodia 
indicate that there could be a small room for negotiations. Djotodia 
said last Sunday that he is willing to release some prisoners and to 
offer several seats in the government to Gbaya people close to the 
anti-balaka.
    Bangui's residents have been arming themselves on both sides of the 
religious divide and every day new revenge killings are committed. In 
the last few weeks, groups of Peul (Fulani) pastoralists, who are 
generally Muslim and have been targets for the anti-balaka, have killed 
Christians in Bangui in retaliation.
Three potential immediate security scenarios
    First is a continuation of urban war and religious massacres 
despite the presence of French forces and a fully deployed MISCA. This 
scenario would be prompted in part by the belief that the French will 
change the balance of power by disarming the Seleka fighters and 
provide an avenue for more anti-balaka to come to the capital and help 
launch a new offensive against the transitional government, hoping for 
support from many Bangui residents. Even more religiously based 
massacres would take place with neither the French nor the MISCA able 
to contain widespread violence.
    Second would be a stalemate in which the anti-balaka forces remain 
outside Bangui and the major threat in the city would come from Seleka 
forces whom the French and MISCA together would ultimately neutralize 
allowing for the restoration of peace and security in the city.
    Third would be a decision by the anti-balaka forces to leave Bangui 
and return to the provinces and a parallel decision by the Seleka 
fighters to return to the barracks and to participate in a renewed 
program of DDRR.
    Each of these scenarios will affect the prospects for ending the 
current crisis. However, we believe that the following three immediate 
security actions are required under all three.
Immediate security steps required
    First, restore law and order (or initially at least stability and 
order) in Bangui.
    a. French forces, MISCA and the returning CAR police gendarmerie 
need to carry out joint patrols in Bangui and disarm anyone--Muslim or 
Christian--in possession of a weapon and require that any armed group 
return to barracks. Patrols should include judicial police officers 
able to make arrests. Policing Bangui to prevent revenge attacks is now 
essential.
    b. Along with the street patrols in the center of Bangui, the 
French and international forces must prioritize the estimated 40 IDP 
informal centers around Bangui, along with hospitals and medical 
centers, and ensure humanitarian access in conjunction with OCHA in the 
city.
    c. Immediate control needs to be established along the key roads 
into and out of Bangui.

    Second, reestablish law and order in the tense communities where 
interreligious clashes have been reported, particularly in Bangui and 
the northwest and secure the main economic corridors from Bangui to the 
Cameroon Border and from Bangui to Bossembele-Bossangoa to the Chad 
border. Again a priority must be to provide security and humanitarian 
assistance in the hotspots, particularly among IDP camps in the 
provinces. Opening major roads not only will mean faster, more 
sustainable relief to those communities but it will permit some 
economic reactivation along those corridors and seek to prevent further 
spill-over to neighbouring countries.

    Third, steps need to be taken to ensure that those responsible for 
international peace enforcement and peacekeeping forces are tightly 
coordinated, fully resourced, rapidly deployed, and complemented by a 
rapid installation of combined international and CAR police forces. 
Militarily the French are in the lead and their robust capabilities are 
the best hope to halt more atrocities in Bangui. However, they cannot 
be everywhere and do everything and therefore it is essential that the 
U.S. not only cooperate fully with the French but also speed its own 
support to the MISCA peacekeeping mission and encourage the right 
balance of forces in terms of national troop contributors and religious 
balance and the right skill sets--such as police, engineers, and 
medical units--in addition to combat troops.
Support needed for AU military deployment and U.N. planning
    The U.S. announcements of a $40 million support package for MISCA, 
followed by the President's authorizing of an additional $60 million to 
support the French and to help provide logistics and lift to the 
African Union troop contributing countries are extremely welcome. We 
would hope that those funds are quickly moved through the bureaucratic 
process so that they can be available as early as the troop 
contributors are ready to move. We understand that DOD also has moved 
separately on emergency authority to bring some of the promised 850 
Burundian soldiers into the country. It would be essential to use some 
of the DOD assistance to provide mobility (including armoured vehicles) 
and communication to the deployed African contingents. We also would 
urge the U.S. to encourage the U.N. and the AU to make good on the 
commitment to assure that some 1,000 of the first 3,600 contingent of 
MISCA forces are a mix of gendarmerie and street cops. It also is clear 
to all that a far larger peacekeeping force, at least at the level of 
an additional 2,400 MISCA forces, as agreed by the French, the AU, CAR 
neighbours, the EU and U.N. representatives in the last summit held in 
Paris on CAR 2 weeks ago, is going to be required. And at least an 
equal portion of them should be police, capable of working side by side 
with suitably trained CAR police in communities across the country.
    Yet at the moment, the number of international police is a fraction 
of what is needed. Nor is there a clear indication that steps have been 
taken to identify French-speaking police who can make up the 
difference. We would urge everyone involved to make this a major 
priority. No one in the AU or the U.N. is able to answer the question 
of who is ready to provide civilian police or when. Policing Bangui and 
the other CAR cities is going to be key to avoid further revenge 
attacks and to reestablish state authority.
    There is a separate issue which relates to whether and when MISCA 
will need to be transformed into a follow-on U.N. peacekeeping mission. 
MISCA needs to get on the ground at its full size and the French will 
need to work closely with them to achieve initial military control. It 
also is clear that the U.N. should accelerate its current timeline for 
assessing conditions on the ground and the adequacy of the existing 
peacekeeping force and make recommendations to the Security Council on 
the need for a UNPKO, the mandate for that PKO, how it will build on 
and incorporate appropriate MISCA forces and how the strength of the 
Africa Union commitment can be harnessed even as the troops shift to 
wearing blue helmets in what could be a new hybrid mission.
    Clearly one of those elements is a robust police and justice 
capacity able to help CAR reestablish its own justice system first in 
Bangui and at a later stage in the provinces.
    The U.N. Secretary General was requested to ``undertake 
expeditiously contingency preparations and planning for the possible 
transformation of MISCA into a United Nations Peacekeeping operation.'' 
We would urge the committee to press the administration to request that 
the planning be accelerated and that clear recommendations for that 
follow-on PKO be available as early as next month so that the detailed 
planning for Troop Contributing Countries and their financing can be 
placed on a fast track.
    One real doubt about any proposal to establish a new U.N. 
peacekeeping mission is to recall that there already have been two 
previous U.N. peacekeeping missions, the last one, MINURCAT, ended in 
2010. Much of the criticism of MINURCAT related to its not having the 
resources to carry out its mandate.
    The current U.N. political mission in CAR, BINUCA, has a recently 
expanded mandate, yet remains vastly underresourced. As one example, 
despite its role in supporting DDR, it was reported as having only two 
officials dedicated to defining a DDR strategy. Similarly, to carry out 
its role in investigating and documenting human rights abuses, BINUCA 
only has four or five officials for the entire country. Without the 
promised security as well, BINUCA staff are unable to move beyond their 
compounds, let alone open the provincial offices as planned.
Medium-term concerns
    There are additional steps that need to be taken to maintain 
security over the medium term and they all have to begin now and the 
U.S. should support them all:

    (1) Disarmament, demobilization, ``repatriation,'' and 
reintegration (DDRR). In CAR, the DDR program has to incorporate a 
significant element of repatriation since a major portion of the Seleka 
group leaders are foreign fighters, mostly from Chad and Sudan. So in 
the planning for this fifth DDR process in some 15 years in CAR, new 
thinking is required. First the diplomatic component needs to be in 
place for those foreign fighters to be repatriated to their own 
country. Similarly the Seleka fighters need to be pressed to reenter 
cantonments and a process begun for their demobilization and access to 
some form of civilian employment or retraining. Some might be able to 
qualify for reintegration into community policing in the provinces but 
simply to incorporate them into a reconstructed army is a bad idea.
    Disarmament of the newly armed population also must begin once the 
Seleka have gone back to barracks and been disarmed. Such disarmament 
will lessen the likelihood of revenge killings. In Banguie, we already 
have seen some of those ex-Seleka being lynched.
    (2) Interfaith reconciliation, community-level social cohesion, and 
peacebuilding activities need to be promoted in Bangui first and 
throughout the country as soon as possible. Radio messaging from 
interreligious representatives, along with neighborhood-level 
peacebuilding activities, is essential given the present high level of 
religious violence in Bangui. Religious youth associations need to be 
incorporated into these neighbourhood-level mediations and dialogues. 
International religious leaders also might need to be brought into the 
effort to help reduce tension between the two religions.
    (3) Investigation, documentation of atrocities, and holding 
accountable those responsible was a role laid out clearly for BINUCA. 
Yet the capacity of the relevant BINUCA unit is simply inadequate to 
that task. In other instances, the U.S. has actually funded NGOs to 
document those atrocities and then to submit that information to local 
judicial authorities. These kinds of efforts should be considered.
    (4) An inquiry into the plunder of natural resources (ivory, gold, 
diamonds, etc.) is essential as a way to understand who benefits from 
the present disorder and to reduce financing of illicit militias. The 
CAR is suspended from the Extractive Industries Transparency Initiative 
(EITI) and the Kimberley Process. Such an investigation can help 
formulate a roadmap for the reintegration of CAR into these 
international bodies. In other instances, the U.S. has also funded NGOs 
to do this kind of inquiry.
    (5) Kick-starting the economic recovery: In a country where near 50 
percent live in extreme poverty and the bulk of the militias on either 
side are young, unemployed, and unhappy, a major focus should be 
attempted on promoting reconstruction of public infrastructure with 
labour intensive rebuilding efforts that reach those young people. Also 
to the extent possible, community based reconstruction should be 
attempted.

    The U.S. can support all of these efforts directly, through the 
World Bank, the African Development Bank (ADB), and the U.N. as well as 
bilaterally through USAID and the State Department.
    The U.S. also should examine what more humanitarian relief can be 
made available immediately and respond quickly to OCHA requests in this 
regard.
    Let me suggest one additional step for the U.S. to take 
immediately: determine what level of protection is needed to permit the 
reopening of the CAR Embassy and the assignment of a new Ambassador. 
U.S. political engagement is much more likely to succeed when you are 
in-country.
    The Seleka coup and the subsequent inability of the transitional 
authorities to function contributed to the final implosion of the CAR 
state. While there now is a need for emergency response, we also need 
to avoid the usual quick fixes. The CAR collapse has been 20 years in 
the making with flawed development, corrupt governance, and constant 
socioeconomic regression at its root. The country's socioeconomic 
indicators are among the worst in Africa. Resuscitating CAR will 
require a focus on economics, particularly prioritizing job creation 
for the country's large pool of unemployed youth. If we want to break 
this historical and long-term decline, the USG should urge the donor 
community to undertake an honest review of the development, 
statebuilding, and governance failures of the last 10 years. This 
review should be a mandatory preparation for the donors' conference 
scheduled for next February. It also is directly relevant to any hopes 
for a successful political transition. The timeline for the proposed 
electoral element of that transition also has to be reviewed in light 
of recent events along with a hard look at security sector reform and a 
recognition that CAR's major security threat is internal and resides in 
the failure of economic development to benefit all but a small minority 
who controlled state power.

    Senator Coons. Thank you, Mr. Schneider.
    One of the things that has failed, in that broad review of 
the many things that have failed, as you have described in some 
detail, is the state, the entire mechanism of the state. Ms. 
List described how the health ministry has almost completely 
failed to function. You described how all the other ministries 
and basic functions of government have largely ceased to exist.
    So some observers have suggested that CAR, the state, is so 
completely broken that external actors will have to perform 
almost a trusteeship role, whether it is in the treasury 
functions or security functions or health functions, and that 
we are a long way from having anything like the basic framework 
of a state to build upon.
    How would you imagine that playing out? You mentioned in 
passing that the BINUCA office is dramatically underresourced 
and it is supposed to have a role in the political transition 
mandate. You referenced MISCA and the French forces and their 
potentially central role in securing transportation corridors 
and in providing basic security and policing functions. Exactly 
how do you see us moving forward in rebuilding the essence of a 
state and in stabilizing the situation? What is the most 
important contribution we can make across these?
    Mr. Schneider. Right now there is a single most important 
function and that is to provide security. You cannot begin to 
build the other elements until you have adequate security and 
begin the disarmament process of Seleka and the anti-balaka 
forces both. I think that the French are beginning to do that, 
and hopefully, together with MISCA, which by the way needs to 
grow from where it is supposed to--2 days from now MISCA will 
exist. It does not exist now. And they have committed 3,600, of 
which 1,000 should be police. They do not have them.
    Then they agreed 2 weeks ago in Paris to go to 6,000. They 
do not have them. You need to get those forces on the ground 
deployed and gain physical control over Bangui and the other 
major cities and the corridors. That has to be done.
    Parallel to it, in terms of your question, it does seem to 
me that the international community at this donors conference 
needs to begin to look at what a transitional structure would 
be in terms of assisting in a parallel way provision of 
services, relief, humanitarian concerns, at the same time begin 
to build back in each sector the state capacity. And I do mean 
to begin to build back, because it simply does not exist.
    I think if you have security some of those people would 
come back to each ministry, and if you had it you would have to 
have a structure that I suspect the United Nations together 
with international donors will have to put together.
    Senator Coons. Thank you.
    Ms. Arieff, are there individuals, civil society leaders or 
other religious leaders, that could promote reconciliation, 
that could move beyond this current crisis domestically in 
concert with the international effort and forces that Mr. 
Schneider is speaking to?
    Ms. Arieff.
    Ms. Arieff. Yes, I think there certainly are and I think, 
as you yourself have identified, as the State Department has 
identified, there are religious community leaders in CAR who 
are already on their own initiative attempting to pass messages 
of reconciliation and peace-building, trying to calm down 
interreligious tensions.
    The leaders with whom you yourself have spoken represent 
the main three organized religious communities in CAR, the 
Protestant community, the Catholic community, and the Muslim 
community. That is already an incredible start. Now, is that 
enough? Probably it is not enough to reach all of the 
populations that are affected by the current violence.
    In fact, in the last few weeks as violence has increased or 
as it increased in early December, we saw a very worrying 
pattern in which mobs were even threatening some of these 
religious leaders and in one case, according to news reports, 
French troops had to intervene to sort of protect the country's 
Muslim community leader. So that is certainly worrying.
    I think more broadly civil society groups in CAR have 
historically been quite weak in terms of capacity and unity. So 
that is also sort of a larger challenge.
    I think as we look forward international policymakers may 
want to ensure that any national-level reconciliation and 
accountability efforts that may come in the medium to long term 
are complemented by reconciliation processes at the very local 
level. Certainly there are national level contests over state 
power and national identity and access to resources that are 
playing out. But as we have seen in other conflicts and in CAR, 
local level actors are using the national level disorder to 
settle scores and act at a very local level. So certainly there 
is that disconnect that may need to be addressed in the long 
run.
    Senator Coons. Ms. List, you described a state of sort of 
chronic emergency, where the underlying health indicators in 
CAR are at the very bottom, some of the worst health conditions 
in the continent, and the widescale infection with malaria, the 
HIV-AIDS rates, suggest that there is a significant already 
unmet medical need before the Ministry of Health largely 
collapsed.
    So first we need to scale up, as you put it, services to 
those remote areas, those in IDP camps, support the 
reestablishment of the public health ministry. What lessons are 
there that we could learn from comparable crises, whether in 
Somalia or the DRC, in terms of how to rebuild the essential 
health services that have at this point gone almost to zero?
    Ms. List. Well, I think first one of the most important 
aspects is to engage people from all sides within the conflict 
and make sure that you have everybody on board with that common 
goal. It will continue to be a tricky situation as we move 
further along. As I said, before we were trying to support the 
Ministry of Health and now in the current situation we are 
basically substituting. At the moment we need more actors, more 
action, meaningful action, to substitute those services until 
we can help and support the ministries to get back to a proper 
or some level of functioning where they can not only 
participate, but take on more and more responsibility.
    Senator Coons. Thank you.
    The MSF issued an open letter to the United Nations and 
that was also reflected in your testimony. It is very critical 
of the U.N. response and how long it has taken. Last week the 
interagency standing committee, as was referenced by the 
Assistant Secretary, elevated the emergency level at CAR to 
Level 3. Will that in your view trigger the kind of response 
that has been lacking? Will that move U.N. entities and 
agencies--in fact, I will ask all three of you if I might. Will 
that heighten the focus and attention on this enough in order 
to deliver the resources needed?
    Ms. List. I hope so. Up to this point there has been some 
high-level people arriving. But what we need is very quick, 
immediate action, and we need to kind of relook at how we do 
security analysis, because I think that has been one of the 
major hindrances for a lot of actors who rely on funding to be 
out and active in rural areas and other towns. It has been very 
disproportionate to the reality.
    So yes, I hope so, but it needs to be quick and meaningful 
action.
    Senator Coons. Thank you.
    If I might briefly, Ms. Arieff, Mr. Schneider, and then I 
will turn it over to Senator Flake.
    Ms. Arieff. Very briefly because I am sure that Ms. List is 
more of an expert on the humanitarian side than I am, but U.N. 
humanitarian agencies do have a presence on the ground. Through 
their strategic planning process, they recently released a new 
strategic plan for CAR in line with this new designation. While 
U.N. agencies are likely to bring greater resources and 
coordination capacity to bear in the coming months, U.N. and 
other humanitarian workers do face real challenges, including 
security threats and a very uncertain political environment.
    On top of that, as has been mentioned and as U.N. documents 
mention, the CAR Government is basically incapable of providing 
any leadership or coordination on the humanitarian response, 
and that differs even from other similarly poor, weak states in 
Africa.
    Mr. Schneider. If I could, the amount that was requested 
last Friday, I guess is when that strategic plan was issued, 
was $247 million. Clearly that is a major increase appeal from 
the United Nations for humanitarian support. I guess I would 
have one cautionary note. I think that I would argue that in 
everything that is done with respect to humanitarian assistance 
that if they are going to do it over a period of a year, fine. 
If it is a 3- to 5-year program, then I think they need--
everything needs to have an element of how do we rebuild 
functioning public services, how do we assist local government 
and national government so that at the end of the process there 
is something there that is sustainable.
    I would also add one other point, which is that I think 
that the determination of how you move from where we are to a 
functioning state is one that is going to require the 
continuing full engagement of the international community, the 
United Nations, European Union, African Union, and the United 
States.
    Senator Coons. Thank you, Mr. Schneider. Thank you to the 
entire panel.
    Senator Flake.
    Senator Flake. Thank you.
    Ms. List, you said in your testimony that the humanitarian 
response has been wholly inadequate. Is it a matter of the 
amount of resources, the dollar figure, or is it the deployment 
and what we are doing with it that is more of a problem, or 
both?
    Ms. List. I would say it is both. The deployment of people 
is a problem in that in this type of a crisis you need 
experienced people who are familiar with conflict situations, 
who are not afraid to go out and go into the bush in areas that 
way. So it is not just the number of people deployed, but it is 
the level of experience of people who are deployed.
    And as well the funding has been low. For instance, in 
Bossangoa we are working really with very few other actors, 
where we are finding the needs are completely overwhelming. MSF 
is not normally taking a big lead in water and sanitation, for 
instance, but there that has been one of our main activities 
because it has been so urgent to get that addressed.
    Senator Flake. What is the level of Doctors Without 
Borders? How many individuals do you have in country?
    Ms. List. We have over 100 international staff and we are 
employing over 1,100 national staff. So 100 international staff 
spread out over seven projects, regular projects, and four new 
emergency projects, it is a hefty number. And still the needs 
are still greater than what we can handle at the moment.
    Senator Flake. I commend you and your organization for 
being in there. That is a tough, tough situation. So thank you.
    Ms. Arieff, you mentioned that Seleka--that they obviously 
have gone too far, but they had legitimate gripes. What are 
those legitimate gripes that they have had and how will those 
need to be addressed with any future government?
    Ms. Arieff. I think that goes to the heart of the matter of 
the conflict in CAR, is acknowledging that there are underlying 
grievances among local populations certainly that in some cases 
might have led them to support Seleka, whether or not Seleka 
leaders themselves are displaying any sense of leadership or 
political cohesion.
    So I think certainly when Seleka arose as a movement in 
mid-2012 it drew on longstanding division in the country 
between the mostly Muslim, partly Arabic-speaking northeast, 
which as I mentioned is culturally distinct from the rest of 
CAR, and the southern population, a sense that successive 
governments from the south and from the west of the country had 
further entrenched the isolation and lack of development on a 
very comparative level, given the broader lack of development 
in the country, but a relative lack of development in the 
northeast, a relative lack of infrastructure even by CAR 
standards, and as well as this sense among many northerners 
that they are treated as foreigners within what they see as 
their own country.
    Now, there are populations that move among those three 
countries--Chad, CAR, and Sudan--which does make it very 
difficult to pin down actual nationality in sort of a western, 
passport-carrying sense. So that adds to our challenge of the 
international community looking at this crisis.
    There were also just broader grievances against the former 
government that I think were widely shared even beyond the 
northeast, that had to do with an increasingly authoritarian 
style of government, an increasingly narrowly ethnically based 
government and senior military ranks, and what was seen by many 
CAR inhabitants as a sort of abusive regime. So I think Seleka 
came out of the overlapping of that north-south divide plus 
just a broader sense of disenchantment with the government. On 
top of that, you had a disenchantment by neighboring states 
that might have acted accordingly in terms of their willingness 
or lack thereof to stop Seleka's final seizure of power.
    Senator Flake. Thank you.
    Mr. Schneider, let me carry on with the question I asked 
the previous panel. What incentive is there--is there 
sufficient incentive for the interim President and the people 
around him to create conditions conducive to a democratic 
process in 2015? Go ahead and answer that and I will follow up.
    Mr. Schneider. I think that, first, it is going to be very 
difficult to follow and implement the transition political 
roadmap that had been agreed to by all sources as a result of 
the recent outbreak of violence. You have a national transition 
council, which is essentially to act as a legislature. Many of 
those have fled. You have got the President has failed to name 
the electoral body that has to be put in place.
    It is going to take, I think, a substantially longer time. 
But I think the effort needs to be to continue to press the 
President to carry out, even slightly delayed, all of those 
steps.
    Now, what are the incentives? It does seem to me here it is 
both carrot and stick. The stick it seems to me you heard from 
the Assistant Secretary was to indicate that if he continues to 
be, if not cooperative, at the very least failing to take 
action when Seleka forces carry out these atrocities, then he 
also will be held accountable. I think that there it is clear 
that, with the French on the ground, with international forces 
on the ground, that that becomes a real possibility. That is 
one.
    But there also has to be some carrot, and I think there the 
incentive is that he and those around him who do follow the 
roadmap will have a significant part of the next government in 
a fair way that they never had in the past. The northeast and 
the Muslim community were essentially excluded. And that is 
really the carrot available to him if he does in fact go along 
with the roadmap.
    I would just make one other point, which is that too many 
of the Seleka military leadership previously had a role in Chad 
for that to be disregarded when you look at what kind of 
military force can help move the process forward and to be 
clear that there also has to be a diplomatic element to 
whatever we call DDR, so that those who, in fact, have a Chad 
national origin and were part of the Chad military need to be 
repatriated and President Deby in Chad needs to cooperate with 
that effort.
    Senator Flake. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    Senator Cardin.
    Senator Cardin. Well, Chairman Coons, let me thank you very 
much for having this hearing. I am sorry I missed the first 
panel and I appreciate the witnesses that are here.
    The circumstances in the Central African Republic are dire. 
You have pointed them out. The USAID numbers indicate 15 
percent of the population are internally displaced, around a 
quarter are food insecure, over half are in need of 
humanitarian aid, and the security situation has led many NGOs 
to leave.
    The first question I have is that, we want to do something. 
You have all acknowledged the challenge of getting help to the 
people who need it. There are certainly the political issues 
that we have to deal with. But in the meantime, people are in 
desperate circumstances. So if you had to advise our committee 
as to what you would put on a short list that could effectively 
help people who are in dire need today, what would you make 
your top priorities?
    Mr. Schneider. I will start at this end. I think the top 
priority is ensuring protection and humanitarian access so 
those humanitarian agencies can reach the people in need, both 
in Bangui and to have protection for every one of the 40 or so 
centers.
    Senator Cardin. How do you provide that protection?
    Mr. Schneider. You get the MISCA, the African Union forces, 
with the French on the ground fully deployed, fully equipped, 
faster. And you also deploy them with the mandate in the other 
cities to protect those humanitarian centers. That it seems to 
me is number one.
    Senator Cardin. Thank you.
    Anyone else want to add to that list?
    Ms. List. Well, I agree security is important. If you ask 
people--when I was on Bossangoa, they would say that that is 
what they wanted, was security, so they could get back to their 
life. But the fact is----
    Senator Cardin. That is security for the people. We 
understand that. We are talking about to get humanitarian aid 
effectively delivered. I think Mr. Schneider raises a very good 
point. We know about NGOs that cannot operate because of the 
security issues. Getting a security force that can effectively 
protect those who want to deliver aid is very important. 
Protecting the domestic population is a separate issue, a very 
important issue. Do not get me wrong, but that is going to be a 
more challenging solution.
    Ms. List. I think that you need more experienced people who 
have worked in such conflict situations. MSF has never fully 
evacuated any of their teams before, during, or after the 
recent conflict. That should not be a precondition to have 
ideal security for humanitarian aid to be delivered. We have 
managed that throughout the conflict and throughout the past 
years.
    So yes, that is important, but you need experienced people 
willing and who understand conflict situations, and funding at 
a quick pace so that those organizations can scale up.
    Senator Cardin. Ms. Arieff.
    Ms. Arieff. As a CRS analyst, I hesitate to list priorities 
for you Senators. But I would note, in addition to what has 
been said, that you might consider in the medium run the fact 
that gaps in data collection in CAR and poor infrastructure are 
going to be major challenges in providing humanitarian relief, 
obviously in the short run in an emergency situation, but also 
in the longer run.
    Senator Cardin. Are there any policies that the United 
States is currently supporting that you believe are 
counterproductive to fulfilling humanitarian needs?
    Mr. Schneider. I think that we are very reluctant, 
appropriately, to reopen the Embassy until we are confident 
that we have security. But that can be defined. The French have 
an embassy that is open. The European Union has an embassy that 
is open and they have people on the ground. The United Nations 
has a small political mission on the ground. I think that we 
should have an embassy, that gives us better information, 
better ability to assess where it is exactly that we can make a 
difference.
    Senator Cardin. Let me ask one other question, if I might, 
about gender violence and the concern for women and children. 
Do any of you have direct information as to the status of 
gender violence activities and the vulnerability of children?
    Ms. List. Well, I do not have any absolute statistics, but 
from the time I was on Bossangoa we had many stories of 
especially women and gender violence. There were even several 
homes where there would be a mama taking care of 10, 15 women 
who had been raped in a previous period. Women are afraid to 
move out and they never go alone.
    So while we offer services and there is treatment available 
immediately afterward, people are not always accessing that out 
of fear, or they do not know about it or they cannot reach. But 
it is our belief that there is significant gender violence 
happening that we do not hear about.
    Ms. Arieff. Just to add to that, certainly again a lack of 
statistics that we are confronting, but anecdotally certainly 
there are reports of gender-based violence, which was also a 
feature of past cycles of CAR violence, particularly during the 
northern rebellions of 2005 to 2007.
    In terms of violence against children, there is also 
concern, just to flag this, of child recruitment into various 
insurgent militias or self-defense groups.
    Senator Cardin. I think all that underscores the point that 
you made about having better information. There are so many 
issues around the world and when you do not have good 
information sometimes you just do not know and do not act. I 
think knowing what is happening on the ground would help us 
galvanize more effective international policies that could 
provide not only safety for the NGO community, but safety for 
the people in the country.
    Thank you again, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Cardin.
    If I might, just a few more questions. Ms. Arieff, has the 
instability in CAR affected the long-term counter-LRA mission, 
and is it possible that MISCA operations could either reinforce 
or conflict with the counter-LRA mission? At the end of your 
last answer you referenced child soldiers and the sort of south 
and southeast portion of CAR has long suffered from aggressive 
LRA actions. I would just be interested in how you see this 
affecting the ongoing counter-LRA work.
    Ms. Arieff. Absolutely. Certainly there was a short-term 
impact on U.S.-supported, Ugandan-led regional operations 
against the LRA. Earlier this year there was a cessation of 
Ugandan operations and of related U.S. support efforts for 
several months because of the security situation, but also 
because sort of a political uncertainty about the new 
government in Bangui after the Seleka takeover and what their 
approach would be to the presence of foreign troops on CAR 
soil.
    The African Union, as I understood it, led in discussing 
with the new government, with the current transitional 
government, how important this mission was, and eventually got 
a green light from Djotodia on down for the U.S.-supported 
operations to continue. So certainly from my understanding 
those operations are ongoing as we speak in southeastern CAR.
    On the other hand, we have seen indications from 
nongovernmental reporting that LRA leaders may be located in 
CAR or may be transitting through CAR even today. So it remains 
a safe haven for them in some ways. We have also seen a new 
pattern where LRA attacks have been reported further north and 
further west than they traditionally were operating in CAR. So 
whether that suggests that LRA may be becoming more comfortable 
operating beyond the bounds of where Ugandan troops can operate 
and what that would mean in the long run is somewhat uncertain.
    In terms of coordination with other African Union troops, 
you raise a very important point. I think there is now 
attention being paid to the need to coordinate between MISCA, 
which, as Mr. Schneider mentioned, will not be operational 
until Thursday, but between MISCA troops and what is called the 
African Union Regional Task Force, i.e., the Ugandan-led 
counter-LRA operation. So I think that is something of a work 
in progress, but certainly international experts are looking at 
that question.
    Senator Coons. Did not Djotodia recently float the idea 
that somehow he was negotiating with Kone for his surrender? 
Did that prove out to have any substance to it?
    Ms. Arieff. It is very hard to evaluate what was exactly 
happening during that period. The State Department publicly 
stated that they could not or would not confirm that Kone was 
actually in communication with Djotodia. It seemed more likely 
that a band of LRA combatants had gotten into contact with 
Djotodia or others in the CAR Government and eventually with 
the United Nations, but that they were not necessarily the 
group that Kone is currently located with.
    Certainly it raised questions about whether Kone or other 
elements of the LRA could use this line of communications to 
negotiate greater space or resources that could allow them to 
prolong their existence or re-up their ranks, as they had done 
during previous peace talks during the Juba process prior to 
2008. I have not seen reports that indicate that that has been 
the case, but certainly they did reportedly receive some aid 
through that communication.
    At the same time, there was a major Ugandan operation that 
netted a number of defections of key LRA leaders and that is 
considered quite significant in CAR as well.
    Senator Coons. What is Djotodia's relationship with 
Nouredine--I think it is Nouredine Adam if I am not mistaken--
who is former Security Minister and has been widely implicated 
in running torture centers, engaging in murders and killings? 
Is he a figure we should be particularly focused on and 
concerned about? And are there other strongmen or regional 
leaders who have the potential to really accelerate the 
violence and mobilize mass atrocities?
    Ms. Arieff. I think you are right to focus on Nouredine 
Adam. He is one of the individuals that Mr. Schneider mentioned 
are associated with Chadian rebel groups, but also, according 
to ICG, he served in the Chadian army at one point. He was in a 
number of northern CAR rebel movements prior to his current 
involvement in Seleka and in the transitional government.
    He is seen in the region as a strongman and, as you 
mentioned, as responsible reportedly for parallel detention 
systems or other abuses associated with the transitional 
government. So he certainly is of concern. I think he is one of 
several Seleka-linked figures that are likely involved in those 
kinds of activities, and we can only hope that future human 
rights reporting by U.N. agencies and others, but also 
monitoring by the new sanctions committee, 
might shed greater light on the role that Adam and other actors 
are playing.
    Senator Coons. You mentioned at the outset one of the real 
challenges is both Seleka and the anti-balaka groups are 
loosely organized, have no clear chains of command. Some of the 
background I got suggests that the militia fighting the Seleka 
groups are sometimes portrayed as pro-Bozize forces. Is the 
former President playing a role here behind the scenes with 
some groups? How do you see the political trajectory here in 
terms of pulling apart the forces and continuing with some 
stabilization?
    As Mr. Schneider mentioned, we have got sort of three 
outcomes here and only one of them seems vaguely appealing, and 
it requires all these various murky political figures to reduce 
their engagement in accelerating the violence.
    Ms. Arieff. That is correct. I think that the anti-balaka 
groups emerged within the last several months, really since 
mid-2013, seemingly initially as a semispontaneous and 
decentralized reaction to Seleka factional violence against 
civilians, and particularly in reaction to a perception among 
Christian communities that Seleka commanders in the field were 
targeting Christian communities disproportionately and perhaps 
reportedly or allegedly protecting Muslim communities as they 
did so.
    Even though the origin of this loose network--individual 
anti-balaka groups may have very little to do with one 
another--at the same time, especially during the anti-balaka 
assault on Bangui on December 5, it seemed from news reports 
and reports on the ground that some anti-balaka factions who 
attacked the capital on December 5 were deploying relatively 
sophisticated armaments and were acting in a relatively 
strategically communicated fashion. That, along with other 
developments, has raised suspicions that some anti-balaka 
factions may be coordinating with former military elements who 
seek the return of deposed President Francois Bozize or even 
might be receiving support from outside the region among, 
purely to speculate, among individuals who are angry at Chadian 
influence or who are seeking leverage through other means.
    It is very unclear right now what the status of those 
chains of coordination are, and it is always possible that 
anti-balaka groups are posturing support for the former 
President in the hopes that if he did return he would reward 
them in some way, not necessarily because there is 
coordination. I raise that solely because we do not really know 
enough right now to make a determination.
    Mr. Schneider. Could I, Mr. Chairman? I think it goes 
beyond that. I think some of the groups clearly did have 
leaders who were former security forces with President Bozize 
in the past, that were identified.
    Senator Coons. If I might, my time has come to an end. I am 
grateful for the testimony of all three of you. I will ask if 
Senator Flake has any concluding questions. It seems to me, Ms. 
Arieff, you suggested there is a north-south divide here. There 
are several other countries that have also had stability 
issues, development issues, humanitarian issues, in central 
Africa and west Africa where there same divide, the same 
longstanding grievances, ultimately led to a collapse of the 
government or regional challenges.
    My hope is that there are lessons learned here, both by the 
American Atrocities Prevention Board and by the United Nations. 
I would like to thank Medecins Sans Frontieres for really 
raising this issue. I would also like to thank Tony Lake, the 
leader of UNICEF, for bringing to my personal attention the 
ongoing crisis in CAR. I would like to thank each of you for 
your hard work on this.
    Senator Flake.
    Senator Flake. Thank you. Just a couple of questions.
    Mr. Schneider, the countries in the region--I know there 
are Chadian forces and extragovernmental actors in play. But 
the governments themselves, are they universally playing a 
constructive role, the governments in the region? Or as things 
have broken down in the past year have we seen certain 
governments wishing for an outcome that we do not want? I will 
put it that way.
    Mr. Schneider. I think the problem is that several 
governments have conflicting interests, both political and 
economic.
    Senator Flake. That is my question. Are there some who 
figure that they benefit from ongoing chaos?
    Mr. Schneider. I think that we have identified that Chad 
particularly has been engaged in different ways that have not 
fully been cooperative or constructive, and that is why the 
effort has been to ensure that the Chadian Government 
understand that they are going to be viewed over the next 
several months in terms of how they respond to the current 
crisis, and they are expecting--both ECAS and the AU and the 
U.N. are expecting them to play a much more positive role in 
the future.
    I should also mention that some of the governments--
Cameroon, for example, they have already had deaths of several 
of their citizens in border clashes in the area where the 
Seleka has gone across the border. So they are quite concerned 
as well. Similarly Sudan.
    Senator Flake. I assume there is a great deal of concern 
about South Sudan, just the events of the past couple of days 
and the impact of that.
    Mr. Schneider. Exactly.
    Senator Flake. One last question. In terms of disarming 
some of the groups, the Seleka and the anti-balaka--I 
understand that means ``anti-machete''--a lot of the weapons 
used in a lot of these massacres are machetes or things like 
this. How far does disarmament go? I mean, are they disarming 
groups of machetes or just 
rifles, or what?
    Mr. Schneider. I think that initially the effort is to 
ensure that groups of men, that armed groups cannot move 
through the streets of Bangui or other cities, whether they are 
carrying AK-47s or machetes, and that whatever weapons they 
have, to take away from them. After that, I think the effort 
will be to go after the guns that are stockpiled in different 
places. I suspect the last step will be the effort to try and 
ensure that populations which have acquired weapons, that they 
are given some incentive to give them up.
    Let me just make one point. One of the concerns we have is 
that this is the fifth, if it happens, this will be the fifth 
DDR process in the Central African Republic. What we would 
argue is that what has occurred in the past is simply the 
effort to say: OK, you go into a camp, you get identified, 
``demobilized,'' and then you transfer and become part of the 
army. That would be a big mistake in this situation, to simply 
try and integrate Seleka forces or anti-balaka en masse into 
the future army of the Central African Republic.
    What has to happen is people need to think through what you 
are going to do with most of these young men who have no 
opportunities and to look for, in our view--start with 
something like community-based labor-intensive construction 
efforts, reconstruction efforts, as a way to transition them 
into civilian life, as opposed to thinking that they are going 
to be the next independent army of the Central African 
Republic.
    Senator Flake. Ms. Arieff, did you have anything to add to 
that? You are nodding your head.
    Ms. Arieff. I agree with the assessment in terms of some of 
the challenges. I think your question is very pertinent. French 
troops have said--French officials have said: Our troops are 
going to disarm anyone in public spaces who is not part of the 
African Union force or part of the Central African Republic 
gendarmerie or police. That is a very tall order and in a lot 
of areas of this country we are talking about communities that 
have been armed, either for hunting or for self-protection or 
for other activities or just out of a sense of security, for 
generations, including with artisanal weaponry or even machetes 
or other forms of weaponry that might not be obvious or easy to 
find.
    So it is certainly an enormous challenge moving forward.
    Senator Flake. Thank you all.
    Senator Coons. I want to thank our second panel. I want to 
thank you for your very hard work broadly in making sure that 
this committee understands the dynamics in sub-Saharan Africa. 
I want to thank you in particular for your great testimony 
today on the evolving humanitarian crisis in CAR, and for your 
personal work in the area.
    We will leave the record of this hearing open until tonight 
to ensure that it is part of the record for tomorrow. I am 
grateful for your service and for your testimony here today. 
Thank you.
    [Whereupon, at 3:44 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 USAID Map Showing Armed Conflict and Active USG Humanitarian Programs 
                   in the CAR Submitted by Earl Gast

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

             Prepared Statement of Catholic Relief Services

    Violence is growing in the Central African Republic and has 
recently spread to the capital of Bangui. An increasing number of 
people have left their homes to avoid spikes in violence, despite the 
arrival of additional French troops to disarm fighting groups. Ex-
Seleka and anti-Balaka elements continue to threaten lives and 
livelihoods around the country. Currently, 2.3 million people, or half 
the country, are in need of basic humanitarian assistance and 1.1 
million are food insecure. One in ten Central Africans has been 
displaced, living as internally displaced persons (IDPs) or refugees in 
another country.
    Catholic Relief Services has been in Central African Republic since 
2007, working closely with the Catholic Church and Caritas/CAR to 
assist those in need. Our field operations are in Mbomou, Haut-Mbomou, 
and Lobaye, and our programming portfolio includes peace-building, 
community-based early warning systems, food security, and agriculture 
recovery. We continue to run these programs, and are now expanding our 
services where security permits, especially in those areas where 
humanitarian needs are not being met. Our program planning also 
incorporates conflict mapping to ensure that protection and conflict 
mitigation are part of our response.
    Throughout CAR, internally displaced persons (IDPs) are currently 
staying in spontaneous camps, finding safety in religious compounds and 
other institutional grounds. Their needs include basic protection, food 
and nonfood items (such as blankets, soap, cooking supplies, etc). The 
displaced and families who host them also need water, sanitation, and 
hygiene facilities, and as families move back to their villages, they 
will need construction materials to rebuild damaged or destroyed homes.
    In Bangui, CRS and its partners are identifying new, emerging sites 
as a result of the December 5th events that have yet to receive 
assistance. CRS hopes to arrange a rapid distribution of basic food and 
nonfood items. For example, the Church has identified as many as 8 IDP 
sites in Bangui that have not received assistance. In anticipation of a 
coordinated effort between partners, we are approaching humanitarian 
supply partners (i.e., WFP and UNHCR) and exploring other sources for 
food and nonfood items from local markets. We are also mapping 
transport needs and options to deliver assistance as fast as possible 
over roads that are badly degraded.
    In Bozoum, where violence is growing by the day, the Pastor of the 
Catholic Mission is hosting 7,900 displaced people, while an additional 
1,100 people are in need of assistance outside the grounds. In Bohong 
and its surrounding villages, 2,500 houses were burned down by Seleka, 
and 3,500 people fled into the bush and 5,000 fled to Bouar. Aid 
workers report continued displacement in the northwest of CAR affecting 
populations along the roads to Yaloke, Boali and Bouar as recently as 
December 3. In response, CRS is leading a Bouar Working Group composed 
of people active in Bouar and nearby areas. We are in close 
communication with the U.N. Crisis Cell to prepare an assessment team 
for rapid deployment to Bouar and nearby areas (Bozoum, Bocaranga, 
Bossantele, Bohong) once security permits. CRS will likely focus its 
response to Boaur and Bozoum.
    In Bossongoa, the Catholic Church is sheltering 40,000 Christian 
IDPs. The nearby Ecole Liberte in Bossangoa is sheltering 6,800 Muslim 
IDPs, which quadrupled from 1,700 a week earlier. Muslims were escaping 
increased violence, and seeking the protection offered by the newly 
arrived Multinational Force of Central Africa (FOMAC). CRS has just 
committed $200,000 in private funds to launch a new partnership with 
Caritas Bossangoa to provide families with basic household needs like 
pots, pans, blankets, clothing and more. These funds will also provide 
Caritas with needed equipment, staffing, and material support, along 
with training for 3 months. CRS/CAR is searching for additional funding 
to support this response. Pending strengthened security, CRS will be 
using private funds to support a 4-day Justice and Peace reflection 
workshop with representatives from each Diocese in the country to 
discuss conflict mitigation needs and a response strategy.
    CRS and Caritas predict two potential scenarios moving forward: (1) 
IDPs who are currently in the bush may flock to Bossangoa city if a 
security cordon is established in the city, or (2) IDPs may return to 
their homes if broader security cordon is established. The second 
scenario would create additional needs for household items and shelter 
support to help rebuild and repair homes that were destroyed by 
militant groups.
                            recommendations
    CRS commends the United States for providing funding ($100 million) 
to support troops coming from France and the African Union to make up 
the mission of MISCA, the African Union's Peacekeeping force. We would 
call upon the USG to support the transition to a robust U.N. 
peacekeeping operation with the mandate and resources necessary to 
protect civilians from mass atrocities and to restore immediate 
stability.
    CRS appeals for Congress to ensure robust funding of International 
Disaster Assistance to adequately meet humanitarian needs. This account 
has been pressed by so many other crises, and Syria gets more costly 
every day. Many Central Africans have lost everything, and as people 
continue to leave their homes out of fear, their needs for food, water, 
and shelter will increase, whether they are at IDPs camps or staying 
with host families.
    CRS would like to highlight the importance of conflict sensitive 
approaches to support humanitarian assistance, as well as recovery 
efforts down the line. Currently Imam Omar Kobine Layama and other 
contacts confirm that there are many displaced Muslims. However, these 
individuals are afraid to gather at mosques and Islamic schools as they 
would represent a target. Muslims in need will likely be a hidden 
affected population, and we will need to make extra efforts to find 
these people, in Bangui and elsewhere. Additionally, supporting certain 
livelihood activities in the response and recovery, such as 
agricultural production, and not others, such as small businesses, 
could create de facto support for certain religious groups and leave 
out others. Therefore our responses must be acutely aware of these 
dynamics.
    CRS also emphasizes the need for activities to build peace and 
promote social cohesion to prevent the situation from worsening. CAR 
civil society, media, and religious entities are essential for 
supporting violence prevention initiatives, and they must be supported 
in the same way as the humanitarian needs are. Youth are also an 
important group in CAR, and can help bridge religious divides that have 
been created during the conflict. CRS is currently engaged in social 
cohesion meetings between religious leaders, including youth, and 
helping to coordinate a Religious Leaders' Platform group, with focal 
points in each mosque and church, that seeks to engage as many people 
as possible with a message of peace. CRS urges the Bureau of Conflict 
Stabilization Initiatives at the State Department to assess the 
viability and adequate funding of these types of essential peace-
building activities to prevent further escalation of the conflict.
    We thank the Senate Committee on Foreign Relations for convening a 
hearing examining the U.S. response to the crisis and look forward to 
working together to assist those in need in Central African Republic.
                                 ______
                                 

                Prepared Statement of Simon O'Connell, 
         West and Central Africa Regional Director, Mercy Corps

    Mercy Corps is an Oregon-based humanitarian and development 
nonprofit organization working in over 40 countries. Our mission is to 
alleviate suffering, poverty, and oppression by helping people build 
secure, productive, and just communities. We greatly appreciate the 
attention this subcommittee, particularly Chairman Coons and Ranking 
Member Flake, have paid to the crisis in the Central African Republic.
    Mercy Corps has worked in the Central African Republic since 2007 
helping communities improve their food security, providing humanitarian 
assistance and protection, including services for victims of gender-
based violence.
    Mercy Corps operates across the country, in Bangui, Bangassou, 
Bambari, Bouar and Rafai, and from our experience on the ground there 
are three key areas where we believe the U.S. Government can intervene 
to help support the people of the CAR, including:
          1. Increasing support for conflict mitigation to prevent more 
        violence and rebuild social cohesion;
          2. Increasing humanitarian assistance to address growing 
        needs; and,
          3. Protection of the population.
                          conflict mitigation
    While the headlines have focused on the increased violence in the 
CAR, there is still a window of opportunity to stem the violence. The 
international community, with leadership from the U.S., needs to invest 
immediately in conflict mitigation activities to prevent escalation of 
the violence. Mercy Corps works throughout CAR, particularly in areas 
most affected by conflict and in the major urban areas, to protect 
vulnerable civilians, and has built strong ties with local leaders, 
community members, and humanitarian partners. As local and national 
religious leaders have stood up against violence in an effort to 
support social cohesion, Mercy Corps has supported these leaders 
through capacity-building and training. Given the shallow roots of 
religious animosity in CAR, there is every reason to believe that 
effective action now can have a significant impact on curtailing the 
carnage being affected in the name of religion.
    In our experience, conflict mitigation should focus on addressing 
tensions arising from scarce resources. CAR is one of the poorest 
countries in the world; prior to the conflict the per capita income was 
less than $800 a year and life expectancy is only 48 years. Efforts to 
reinforce sustainable dispute resolution and generate increased trust 
through joint economic and natural resource initiatives benefiting both 
Christian and Muslim communities can serve the dual purpose of 
mitigating conflict and helping Central Africans start to rebuild their 
economy.
    While the administration can utilize the Complex Crisis Fund to 
support conflict mitigation efforts, I would encourage Congress, and 
particularly this subcommittee, to focus on how to ensure these funds 
are quickly dispersed so that we can take advantage of this window of 
opportunity to create the conditions for a longer term peace. 
Additionally, to ensure the U.S. Government has the tools to stem 
future crises, I would encourage Congress to support additional funds 
for the Complex Crisis Fund in FY 2014 and FY 2015.
    But we must act now. Failure to act quickly risks a spiralling of 
conflict which will further polarize communities and result in a 
situation that is much more complex and expensive to resolve. 
Additionally, the porousness of the CAR's borders means that further 
destabilization in the country will imperil not only the CAR but also 
the already fragile wider region. For example, tensions in the CAR are 
currently contributing to rising insecurity on the border with 
Cameroon.
                        humanitarian assistance
    The humanitarian situation in the CAR is dire. The current 
humanitarian crisis is affecting an estimated 4.6 million people (the 
entire population of the CAR), including 2.3 million children. More 
than 633,000 people are internally displaced and a further 43,969 
refugees are in neighbouring countries. Hundreds of thousands of 
children lack access to basic services. The latest figures from WFP 
indicate that 1.3 million people (28 percent of the population in the 
CAR and 23 percent outside of Bangui) are at risk of hunger and 
starvation due to meager harvests and unending violence. Immediate 
action must be taken by international donors to fill the $103 million 
funding gap of the U.N. appeal. OFDA must further respond to this 
crisis and additional IDA funding is needed in FY 2014 to meet growing 
needs. To date, OFDA has primarily focused on the South-East and LRA-
affected areas, but needs are great in other parts of the country.
    The shortage of funds available to address the crisis in the CAR is 
emblematic of a larger potential shortfall. We encourage the 
administration to quickly prioritize OFDA funding for CAR, which can be 
rapidly, effectively, and flexibly programmed, but also ask that 
Congress ensure in the final FY 2014 State and Foreign Operations 
Appropriations bill that the International Disaster Assistance Account 
(IDA), which funds OFDA, receives no less than the Senate proposed 
level of $1.6 billion. During the FY 2015 budget process, I hope this 
subcommittee will continue to fight for sufficient resources to respond 
to the crisis in CAR, and other crisis throughout the continent.
                                security
    In most humanitarian crises, food, shelter, and clean water are the 
most pressing needs. But in the CAR, the number one request of the 
people we work with is ``protection.'' Insecurity and the threat of 
violence have terrorized the population. We therefore applaud the 
leadership of the French to deploy more troops and greatly appreciate 
the additional logistical funds the U.S. has provided. There's a 
pressing need to expand the number of peacekeeping forces to address 
the insecurity in the country, while ensuring they are appropriately 
mandated to effectively fulfill the multidimensional requirements of 
such an operation. In particular, emphasis must be placed on 
disarmament, demobilization, and reintegration (DDR) programs for 
Seleka combatants.
    Lastly, I would ask that this subcommittee, and Congress as a 
whole, not forgot about the people of the CAR after this immediate 
crisis is over. In order to support the country and its people, 
sustained attention and resources must be provided to the CAR, 
including support for longer term development, with the focus on 
improving governance, strengthening institutions, private sector 
development and enhancing the capacity of local organisations to 
support women and children victims of violence. Eventually, hopefully, 
we can move beyond crisis response in the CAR, but that will require a 
longer term commitment. Once the immediate crisis has passed, we should 
focus on the challenges of political transition, security-sector reform 
and support for initiatives that improve transparency and governance of 
resources--notably within the mining sector. Your continued focused 
attention on the CAR will ensure we can move beyond the crisis and 
toward a more lasting and stable country, and stability gains in the 
wider central Africa region.
    Thank you again for the attention this committee has paid to the 
crisis and for your efforts to improve the lives of the people of the 
Central African Republic.
                                 ______
                                 

Letter Sent to Senator Christopher A. Coons by Most Reverend Richard E. 
Pates, Bishop of Des Moines, Chairman of the Committee on International 
        Justice and Peace, U.S. Conference of Catholic Bishops 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
